_________________________________
No. _______________
__________________________________
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
____________________________________
JASPER POLLINI, Petitioner
v.
AMY ROBEY, WARDEN,
LUTHER LUCKETT CORRECTIONAL COMPLEX, Respondent
____________________________________________
PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
____________________________________________
Timothy G. Arnold
Post-Trial Division Director
tim.arnold@ky.gov
Department of Public Advocacy
5 Mill Creek Park
Frankfort, Kentucky 40601
(502) 564-8006
(502) 695-6769 (fax)
April 26, 2021

QUESTIONS PRESENTED
Pollini’s appellate counsel failed to raise a claim that Pollini was entitled to
participate in formulating the response to an important jury question. The Kentucky
Supreme Court refused to determine whether Pollini would have prevailed in his
appeal had appellate counsel raised the issue, finding only that in light of recent
changes to the standard of harmless error, Pollini would not prevail in the appeal it
it was heard at the time of the post-conviction decision.
The Sixth Circuit concluded that Pollini would have gotten a new trial had counsel
raised the claim. However, ignoring the state court’s actual reasoning, the Sixth
Circuit nevertheless found that Pollini could not cross the § 2254 threshold. The basis
for the Sixth Circuit’s ruling was that Lockhart v. Fretwell – a case with no direct
application to the instant case, and which this Court has held should be limited to its
facts – made it possible for reasonable jurists to disagree about whether the outcome
of the state post-conviction proceedings was incorrect.
The questions presented by this Petition are:
1. Whether Lockhart v. Fretwell’s suggestion that “mere outcome determination” is
not sufficient to establish prejudice under Strickland v. Washington is part of the
“clearly established law” governing the state court’s ruling, in light of subsequent
limiting decisions.
2. If not, whether a state court’s denial of an ineffective assistance of appellate
counsel claim based on the harmless error standard in effect at the time of the
post-conviction action, rather than deciding whether the result of the appeal
would be different, is contrary to or an unreasonable application of Strickland v.
Washington and Smith v. Robbins.

-i-

LIST OF PARTIES
1. Jasper Pollini is represented by Hon. Timothy G. Arnold, Department of Public
Advocacy, 5 Mill Creek Park, Frankfort, Kentucky 40601.
2. Amy Robey, Warden, Luther Luckett Correctional Complex is represented by
Hon. Daniel Cameron, Attorney General, and Hon. Jeffrey Cross, Assistant
Attorney General, 1024 Capital Center Drive, Frankfort, Kentucky 40601.

-ii-

TABLE OF CONTENTS
QUESTIONS PRESENTED ........................................................................................ i
LIST OF PARTIES ...................................................................................................... ii
TABLE OF CONTENTS ............................................................................................ iii
TABLE OF AUTHORITIES ...................................................................................... iv
OPINIONS BELOW .................................................................................................... 1
JURISDICTION .......................................................................................................... 2
STATUTORY PROVISION INVOLVED .................................................................. 2
STATEMENT OF THE CASE .................................................................................... 2
REASONS FOR GRANTING THE WRIT .............................................................. 11
I.
This Court Should Grant Review to Determine the Application of
Fretwell’s “Mere Outcome Determination” Language to Claims of Strickland
Prejudice, in Light of Subsequent Limiting Decisions. ................................... 13
II.
This Court Should Accept Review to Determine Whether Strickland
and Smith Require Prejudice to be Evaluated at the Time of the Original
Appellate Decision. .................................................................................................. 21
III.

This Case is an Appropriate Vehicle for Reviewing These Issues. .... 24

CONCLUSION ........................................................................................................... 25

-iii-

TABLE OF AUTHORITIES
CASES
Aeid v. Bennett, 296 F.3d 58 (2d Cir. 2002) ................................................................ 17
Clements v. Clarke, 592 F.3d 45, 55 (1st Cir. 2010) ................................................... 19
Commonwealth v. Pollini, 437 S.W.3d 144 (Ky. 2014) ................................................. 7
Cruz v. Miller, 255 F.3d 77, 86 (2d Cir. 2001) ............................................................ 19
Cullen v. Pinholster, 563 U.S. 170 (2011) ................................................................... 21
Dennis v. Secretary, Pennsylvania Department of Corrections, 834 F.3d 263, 283 (3d
Cir. 2016) ...................................................................................................................... 19
Elery v. Commonwealth, 368 S.W.3d 78 (Ky. 2012) ..................................................... 7
Eversole v. Commonwealth, 600 S.W.3d 209 (Ky. 2020) ............................................ 25
Frantz v. Hazey, 533 F.3d 724, 737 (9th Cir. 2008) .................................................... 20
Gallegos v. Ryan, 820 F.3d 1013 (9th Cir. 2016) ........................................................ 17
Glover v. United States, 531 U.S. 198 (2001) ........................................................ 14, 16
Hanna v. Ishee, 694 F.3d 596, 613 (6th Cir. 2012) ..................................................... 17
Hennon v. Cooper, 109 F.3d 330, 335 (7th Cir. 1997) ................................................. 20
Holland v. Rivard, 800 F.3d 224, 235–36 (6th Cir. 2015) .......................................... 19
Hollon v. Commonwealth, 334 S.W.3d 431, 437 (Ky. 2010) ......................................... 8
Horn v. Banks, 536 U.S. 266, 272 (2002) .................................................................... 21
Howes v. Fields, 565 U.S. 499 (2011) .......................................................................... 21
Johnson v. Secretary, DOC, 643 F.3d 907 (11th Cir. 2011) ....................................... 20
Johnston v. Secretary, Florida Department of Corrections, 949 F.3d 619, 639 (11th
Cir.)(2020) .................................................................................................................... 17
Kotteakos v. United States, 328 U.S. 750 (1946)........................................................... 7
Lafler v. Cooper, 566 U.S. 156, 166 (2012)...................................................... 14, 16, 17
Makiel v. Butler, 782 F.3d 882 (7th Cir. 2015) ........................................................... 17
McAfee v. Thaler, 630 F.3d 383 (5th Cir. 2011) .......................................................... 17
McAtee v. Commonwealth, 413 S.W.3d 608 (Ky. 2013) ........................................ 6, 7, 8
McFarland v. Yukins, 356 F.3d 688 (6th Cir. 2004) ................................................... 22
Metrish v. Lancaster, 569 U.S. 351 (2013) .................................................................. 21
Neal v. Puckett, 239 F.3d 683 (5th Cir.2001) .............................................................. 19
-v-

Nix v. Whiteside, 475 U.S. 157 (1986) ................................................................... 14, 16
Parker v. Matthews, 567 U.S. 37 (2012) ...................................................................... 21
Plank v. Commonwealth, 2005 WL 1313838 (Ky. App. June 3, 2005) ........................ 5
Pollini v. Commonwealth, 172 S.W.3d 418 (Ky. 2005) ................................................. 5
Pollini v. Commonwealth, 2009-CA-964 (12/22/2011) .................................................. 5
Pollini v. Robey, 981 F.3d 486, 493 (6th Cir. 2020) ............................................ passim
Robinson v. Polk, 438 F.3d 350, 358 (4th Cir.2006) ................................................... 19
Shaw v. Wilson, 721 F.3d 908 (7th Cir. 2013) ............................................................ 22
Shoop v. Hill, ___ U.S. ___, 139 S.Ct. 504 (2019) ....................................................... 21
United States v. Bernard, 762 F.3d 467, 471 (5th Cir. 2014) ..................................... 18
United States v. Deiter, 890 F.3d 1203, 1209 (10th Cir. 2018)................................... 18
Williams v. Roper, 695 F.3d 825, 831 (8th Cir. 2012) ................................................ 19
Winstead v. Commonwealth, 283 S.W.3d 678, 689 (Ky.2009)...................................... 7
Whatley v. Zatecky, 833 F.3d 762, 775 (7th Cir. 2016) ............................................... 19
White v. Wheeler, 577 U.S. 73 (2015) .......................................................................... 21
White v. Woodall, 572 U.S. 415 (2014) ................................................................... 21,22
Young v. Dretke, 356 F.3d 616 (5th Cir. 2004)............................................................ 22
STATUTES
28 U.S.C § 2254 .................................................................................................... passim
OTHER AUTHORITIES
Noam Biale Beyond A Reasonable Disagreement: Judging Habeas Corpus, 83 U. Cin.
L. Rev. 1337 (2015) ...................................................................................................... 18

-vi-

_________________________________
No. _______________
__________________________________
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
____________________________________
JASPER POLLINI, Petitioner
v.
AMY ROBEY, WARDEN,
LUTHER LUCKETT CORRECTIONAL COMPLEX, Respondent
____________________________________________
PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
____________________________________________
Jasper Pollini, Petitioner, respectfully petitions for a writ of certiorari to review
the order of the United States Court of Appeals for the Sixth Circuit, affirming a
finding denying habeas corpus relief on his ineffective assistance of appellate counsel
claim.
OPINIONS BELOW
The published opinion of the United States Court of Appeals for the Sixth
Circuit in Pollini v. Robey, 981 F.3d 486 (6th Cir. 2020) is attached at Appendix
(“Apx”) A. The unpublished ruling of the United States District Court for the Western
District of Kentucky in Pollini v. Litteral, 3:14-CV-689-DJH-RSE, 2019 WL 236721
(W.D. Ky. Jan. 15, 2019), is attached at Apx B.
-1-

The published decision of the

Kentucky Supreme Court in Commonwealth v. Pollini, 437 S.W.3d 144 (Ky. 2014) is
attached at Apx C. The unpublished Kentucky Court of Appeals opinion in Pollini v.
Commonwealth is attached at Apx D. The unpublished opinion of the Jefferson (Ky.)
Circuit Court is attached at Apx E.
JURISDICTION
It is undisputed that Petitioner timely and properly filed a habeas corpus
action in the United States District Court for the Eastern District of Kentucky, and
then timely and properly appealed the denial of relief in that action to the United
States Court of Appeals for the Sixth Circuit. This Court has jurisdiction under 28
U.S.C. § 1254(1) to review the final decision of a United States Circuit Court of
Appeals.
STATUTORY PROVISION INVOLVED
28 U.S.C. § 2254(d) states:
An application for a writ of habeas corpus on behalf of a
person in custody pursuant to the judgment of a State court
shall not be granted with respect to any claim that was
adjudicated on the merits in State court proceedings unless
the adjudication of the claim—
(1) resulted in a decision that was contrary to, or involved
an unreasonable application of, clearly established
(2) Federal law, as determined by the Supreme Court of
the United States; or
(3) resulted in a decision that was based on an
unreasonable determination of the facts in light of the
evidence presented in the State court proceeding.
STATEMENT OF THE CASE
1.

Trial: Mr. Pollini and his sister, Crystal Plank, were both arrested and
-2-

charged with murder in the death of Byron Pruitt in suburban Louisville. Prior to
their arrest, both had given taped statements, which indicated that Mr. Pollini had
shot Pruitt accidentally, and that he was only trying to scare him off.
Pollini and Plank were tried together. Plank testified and affirmed her prior
statement to police. At the time of her testimony, Plank’s counsel attempted to offer
a transcript of her prior statement into evidence, but that motion was denied, due to
Plank’s attorney’s failure to have the transcript certified prior to trial. Instead, a
tape of the statement was played for the jury and then entered into evidence to go
back to the jury room. Ironically, after objecting to the transcript going back to the
jury, during closing arguments the Commonwealth blew up portions of the transcript
prepared by Plank’s counsel to use as a “demonstrative aid” in its argument.
The Commonwealth argued that Pollini had intentionally shot Pruitt, which
Pollini disputed. In evaluating Pollini’s defense, Plank’s statement was critical, as it
corroborated Pollini’s in every respect, and clearly indicated that Pollini was not
aiming for Pruitt at the time he fired.
following question to the court:

During deliberations, the jury sent the

“Does there exist a transcript of the Plank

conversation w/Police? Difficult to locate on tape. If so, can we pls request?” 1 Without
consulting counsel or having a hearing in court as required by Ky.R.Cr. 9.74, the
Court responded, “There’s none available.” 2

Neither party’s counsel apparently

learned of the note or the response until the case was on appeal.
1

Jury Note, Appendix, supra, PageID #380.

2

Id.
-3-

2.

Direct Appeal: Pollini was convicted of Murder and other offenses and

sentenced to Life Without Parole for 25 Years (LWOP/25), while Plank was convicted
of complicity to second degree manslaughter and sentenced to 10 years. Both Pollini
and Plank appealed, with Pollini’s appeal going to the Kentucky Supreme Court, and
Plank’s appeal going to the Kentucky Court of Appeals. In her appeal, Plank raised
the ex parte jury issue. Though the court in her case reversed on other grounds, it
also found the ex parte jury contact issue “very bothersome”, stating:
The Commonwealth's position on this issue is that the trial
court correctly answered the jury's question (since the
transcript of Crystal's statement was not admitted into
evidence, it was not available) and thus no information was
given to the jury such that the notice requirements of RCr
9.74 would have been invoked. We disagree that the notice
requirements of RCr 9.74 were not applicable in this case.
In our view, the court's answer, “There's None Available”,
was itself information given to the jury that required notice
to the parties and to counsel. The trial court was most
assuredly aware of the desire of Crystal's counsel to have
this transcript before the jury and it is very bothersome to
this Court that counsel was never even given notice that
they had requested the transcript. This is especially true
in light of the following: the Commonwealth used a selected
portion of this very transcript in its closing argument;
there were questions regarding the audibility of the
audiotape of Crystal's statement; and dicta in Perdue v.
Commonwealth, 916 S.W.2d 148, 155 (Ky.1996), regarding
the jury's access to transcripts of tape recordings. Given
our rulings above, however, we need not proceed to an
analysis of whether this error warranted reversal in this
case. 3
By contrast, Pollini’s appellate counsel did not raise the ex parte jury issue.

3

Plank v. Commonwealth, 2005 WL 1313838, at *9 (Ky. App. June 3, 2005).
-4-

Rather, on appeal, Pollini’s counsel raised nine claims of error, including some
notable clunkers, including an unpreserved issue that would have required the
Kentucky Supreme Court to overturn a decision that had become final months before
the brief was filed. The Kentucky Supreme Court rejected all the arguments except
the claim that the homicide did not occur in the course of the burglary, vacating the
case for a new sentencing hearing. 4
3.

State Post-Conviction Proceedings: After Pollini was resentenced to

a life sentence on the murder charge, and his appeal from that sentence was denied,
Pollini filed post-conviction action in state court raising several claims, including that
counsel was ineffective for failing to raise the ex parte jury contact claim. Eventually,
the Kentucky Court of Appeals found that Pollini’s conviction should be vacated on
the basis of the ineffective assistance of appellate counsel due to appellate counsel’s
failure to raise the ex parte jury claim, noting that Plank’s counsel had raised the
claim and the Court had suggested it warranted relief. 5 Describing the error as
“egregious”, the Kentucky Court of Appeals held that:
The jury’s note regarding Plank’s statement to police
clearly indicates that they were unable to understand or
find portions of Plank’s statements in the videotape of her
testimony. The transcript did in fact exist, and thus the
judge’s response to the jury was erroneous and misleading,
at best. While the record indicates that Pollini had at some
point objected to the introduction of Plank’s statement to
police, at the very least, the judge was required to present
4

Pollini v. Commonwealth, 172 S.W.3d 418 (Ky. 2005).

5

Pollini v. Commonwealth, 2009-CA-964 (12/22/2011), Apx. E.

-5-

the jury’s request to counsel in Pollini’s presence.
Accordingly, the trial court committed reversible error
when it provided false information outside of Pollini and
counsel’s presence to the jury. This is exactly the behavior
that RCr 9.74 is intended to prevent. 6
The Kentucky Supreme Court subsequently granted the Commonwealth’s motion for
discretionary review, in order to consider the issue of whether Pollini’s appellate
counsel was ineffective.
In the Kentucky Supreme Court, the briefing focused on whether the error was
subject to harmless error analysis in the period from 2003 to 2005 when the case was
briefed and decided, with Pollini arguing that the standard at the time was structural
error, and the Commonwealth arguing that the issue was subject to harmless error.
Three days after Pollini’s post-conviction brief was filed, and before the
Commonwealth’s reply brief was due, the Kentucky Supreme Court finally decided
McAtee v. Commonwealth. 7 In McAtee, the Kentucky Supreme Court held for the first
time that errors under RCr 9.74 were only reversible if they “impugn[ed] the
fundamental fairness of an otherwise constitutionally acceptable trial.” 8 The Court
went on to describe the standard of harmless error to be consistent with the “effect
on the verdict” test identified by this Court in Kotteakos v. United States. 9

6

Id., Apx. D, Page 10.

7

McAtee v. Commonwealth, 413 S.W.3d 608 (Ky. 2013)

8

Id., at 627.

9

Id. (citing Kotteakos v. United States, 328 U.S. 750 (1946))

-6-

This

standard was not in use in Kentucky for any issue until well after Pollini’s original
appeal had been decided in 2006. 10
Other than including McAtee in a string cite to support the proposition that a
harmless error standard applied, the Commonwealth did not argue in its reply brief
that the new standard was applicable. At no point prior to the opinion did either
party suggest that a new standard of harmless error could be retroactively applied to
Pollini’s ineffective assistance of appellate counsel claim, nor did either party
reference Lockhart v. Fretwell.
The Kentucky Supreme subsequently reversed the Court of Appeals and
reinstated the judgment of conviction and sentence. 11 Relying on state precedent
applying Smith v. Robbins and Strickland v. Washington, 12 the Court noted that to
prevail in addition to proving deficient performance, Pollini would have to show “that
absent counsel's deficient performance there is a reasonable probability that the
appeal would have succeeded.” 13 The Court then turned to the question of whether
any deficiency was prejudicial under that standard.
The Kentucky Supreme Court has acknowledged that Kotteakos standard was first
adopted by Kentucky in the 2009 case of Winstead v. Commonwealth, 283 S.W.3d 678,
689 (Ky.2009). See Elery v. Commonwealth, 368 S.W.3d 78, 85, n.4 (Ky. 2012)(noting
that the prior, Chapman-style test “has been supplanted by the effect-on-the-verdict
test of Winstead.”)
10

11

Commonwealth v. Pollini, 437 S.W.3d 144 (Ky. 2014).

Smith v. Robbins, 528 U.S. 259 (2000); Strickland v. Washington, 466 U.S. 668
(1984).
12

13

Id., at 149, citing Hollon v. Commonwealth, 334 S.W.3d 431, 437 (Ky. 2010).

-7-

Describing the question of what harmless error standard to apply to the error
as a debate over the “appellate standard of review”, the Kentucky Supreme Court
held that it “will not conduct an inquiry into which appellate standard of review was
applicable to RCr 9.74 violations in 2004 without first questioning whether the
standard at issue was procedural or substantive law.” 14 The Court then concluded
that the “appellate standard of review” identified in McAtee was “procedural” and not
“substantive”, and therefore could be retroactively applied to Pollini’s case. 15 In
determining what standard of appellate review to apply, neither Lockhart v. Fretwell
nor its reasoning was ever mentioned. That decision played no apparent role in the
Kentucky Supreme Court’s decision, which was based on conflating the standard of
Strickland prejudice with the standard of harmless error to be used on direct appeal.
Using the recently adopted standard, the Kentucky Supreme Court concluded
that the error was harmless, and denied relief. Pollini’s rehearing petition arguing
that the Court erred by retroactively applying the standard of review was rejected in
a summary order.
4.

Federal Habeas Corpus Proceedings:

Pollini filed the instant

habeas action arguing in pertinent part that the Kentucky state courts resolution of
Pollini’s claim of ineffective assistance of appellate counsel regarding the RCr 9.74
violation was contrary to, or an unreasonable application of, Smith and Strickland.
Pollini further argued that the resolution of the issue was based on an unreasonable
14

Id., at 150.

15

Id., at 150-152.
-8-

determination of the facts, because the findings that the jury had an operable copy of
the correct tape and eventually listened to the statement was little more than “rank
speculation.”

The Warden, on behalf of the Commonwealth, argued that the state

court decision was not unreasonable, because under Lockhart v. Fretwell, the Court
was required to use the law in effect at the time of the post-conviction decision.
The case was referred to a magistrate judge, who on December 22, 2016, issued
a recommendation that Pollini be granted habeas corpus relief in the form of a new
appeal on the ex parte jury issue, based on ineffective assistance of appellate
counsel. 16

The Warden objected, and the District Court overruled the Magistrate

Judge. 17 On the issue of whether the Kentucky Supreme Court applied the correct
prejudice standard, the District Court rejected the Magistrate Judge’s reasoning and
construed Lockhart v. Fretwell, 506 U.S. 364, 372 (1993) to hold that “[i]n determining
whether prejudice has occurred, the reviewing court should apply current governing
law rather than the law in place at the time of the alleged deficiency.” 18
5.

The Opinion Below: Pollini appealed the decision, and a Certificate

of Appealability was granted. On appeal, the Sixth Circuit summarized the problem
as follows:
Whether Pollini would have prevailed turns on what
standard of review the Kentucky Supreme Court was
required to apply to a Rule 9.74 violation: a “structural
Findings of Fact, Conclusions of Law, and Recommendation, R. 39, PageID## 15591618.
16

17

Memorandum Opinion and Order, R. 50, PageID ##1726-1741

18

Id. at 1730.
-9-

error” or “fundamental fairness” standard. On that issue,
the legal landscape shifted during the course of Pollini's
appeal. At the time of his direct appeal, Rule 9.74 violations
were subject to a structural error standard, meaning
Pollini likely would have prevailed had his counsel raised
the issue. But by the time of his collateral attack, Rule 9.74
violations were reviewed under a fundamental fairness
standard, one more favorable to the Commonwealth. The
Kentucky Supreme Court held that the latter standard
applied in Pollini's case. As a result, Pollini could not show
prejudice from his appellate counsel's error. 19
The Sixth Circuit found that the Kentucky Supreme Court’s decision was not contrary
to Strickland and Smith, stating that “Pollini does not point to (nor can we identify)
any Supreme Court holding directly prohibiting the Kentucky Supreme Court from
applying the current standard of review to his case.” 20 The Court then concluded that
the Kentucky Supreme Court’s conclusion was not “objectively unreasonable” because
Fretwell might have permitted the court to use the current standard of review. The
Sixth Circuit acknowledged that Fretwell’s “footprint is limited”, 21 and that while
Fretwell and the cases relying on it “relied on a defunct legal right that no longer
existed (and could even be characterized as having never validly existed), Pollini still
maintained a valid legal claim to be privy to jury communications. Only the standard
of review for violations of that right has changed (in a way, all agree, that

19

Pollini v. Robey, 981 F.3d 486, 493 (6th Cir. 2020)

20

Id. at 494.

21

Id.

-10-

dramatically undercut Pollini's likelihood of success).” 22 However, the Court rejected
those limitations, finding that “[t]he upshot is thus the same in both instances: Pollini
would receive something to which he is no longer entitled.” 23
Noting that “[w]e have disagreed ourselves over whether to apply current law
retroactively for Strickland claims”, the Sixth Circuit concluded that “perhaps the
best one can say is that it is not entirely clear whether the Kentucky Supreme Court's
decision to retroactively apply a new legal standard to Pollini's Strickland claim was
correct.” 24 Based on that ambiguity, the Sixth Circuit found that the Kentucky
Supreme Court’s resolution of the issue was not “objectively unreasonable.”
The Sixth Circuit denied relief on this claim, and remanded a separate claim
to the District Court for further proceedings. This petition follows.
REASONS FOR GRANTING THE WRIT
This Court has made clear that “the proper standard for evaluating [a] claim
that appellate counsel was ineffective . . . is that enunciated in Strickland v.
Washington, 466 U.S. 668 (1984).” 25 Prejudice under Strickland requires the
Petitioner to “show that there is a reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding would have been different.” 26 In

22

Id. at 496.

23

Id.

24

Id.

25

Smith v. Robbins, 528 U.S. 259, 285 (2000).

26

Strickland, supra at 694 (emphasis added).

-11-

the context of ineffective assistance of appellate counsel, that means that “he must
show a reasonable probability that, but for his counsel's [deficient performance] he
would have prevailed on his appeal.” 27
By those standards, Pollini should have easily passed through the § 2254(d)
threshold, and received de novo review of his ineffectiveness claim. After all, the
Sixth Circuit found that “[a]t the time of his direct appeal, Rule 9.74 violations were
subject to a structural error standard, meaning Pollini likely would have prevailed
had his counsel raised the issue.” 28 The Kentucky Supreme Court denied relief only
because it conflated the standard of harmless error on direct appeal, with the
standard of Strickland prejudice, and therefore never addressed whether Pollini
would have prevailed had counsel raised the issue at the time. In doing so, the
Kentucky Supreme Court acted contrary to Strickland, or at the very least,
unreasonably applied the “reasonable probability of a different result” standard.
The Sixth Circuit made no effort to defend the Kentucky Supreme Court’s
actual reasoning. Rather, the Sixth Circuit’s opinion focused exclusively on the
question of whether Lockhart v. Fretwell – a case the Kentucky Supreme Court did
not consider – applied to this situation. 29 After concluding that Fretwell might apply,
the Sixth Circuit further concluded that if it applied, it was possible (though by no

27

Robbins, supra at 285.

28

Pollini v. Robey, supra at 493

29

Id., at 494-496 citing Lockhart v. Fretwell, 506 U.S. 364 (1993)

-12-

means certain) that the Kentucky Supreme Court reached the right result. 30 On that
basis, the Court found that Pollini could not cross the § 2254(d) threshold.
This Court should grant review of this case for several reasons. First, this
Sixth Circuit’s ruling largely disregards this Court’s past attempts to limit Fretwell
to its facts. Fretwell does not directly apply to this situation, and allowing the Sixth
Circuit to apply Fretwell’s language rejecting “mere outcome determination” as part
of its § 2254(d) analysis, especially in a case where Fretwell played no role, prevented
review of Pollini’s ineffectiveness claim. Second, the Sixth Circuit’s approach to this
case yet again demonstrated a misunderstanding of the requirement that it the court
first identify the “clearly established law”, rather than speculating about where the
law might go and conducting an analysis of the reasonableness of the state court’s
decision based on that speculation.

I.

This Court Should Grant Review to Determine the Application of
Fretwell’s “Mere Outcome Determination” Language to Claims of
Strickland Prejudice, in Light of Subsequent Limiting Decisions.
This court has on several occasions concluded that Fretwell did not modify the

ordinary standard of Strickland prejudice, for purposes of habeas corpus analysis. 31
Pollini v. Robey, supra, at 496 (“perhaps the best one can say is that it is not entirely
clear whether the Kentucky Supreme Court's decision to retroactively apply a new
legal standard to Pollini's Strickland claim was correct.”)
30

Lafler v. Cooper, 566 U.S. 156, 166(2012)(“The Court has rejected the argument
that Fretwell modified Strickland before and does so again now”); Williams v. Taylor,
31

-13-

The reason this Court has sought to limit the reach of Fretwell’s “fundamental
fairness” language is that it brings more heat than light to the question of whether a
person was harmed by his or her attorney’s nonperformance. At the time of Fretwell’s
habeas petition, he was seeking to take advantage of a temporary state of the law,
since reversed, which would have resulted in his ineligibility for the death penalty.
This Court rejected that argument because “in judging prejudice and the likelihood
of a different outcome, ‘[a] defendant has no entitlement to the luck of a lawless
decisionmaker.’” 32 Justice O’Conner concurred separately to note that “today's
decision will, in the vast majority of cases, have no effect on the prejudice inquiry
under Strickland . . ..” 33

Emphasizing the “narrow” nature of the ruling, Justice

O’Conner emphasized her view that the only thing Fretwell should stand for is that
certain matters – such as the fact that the objection might have erroneously been
sustained – are excluded as a matter of law from the Strickland calculus. 34
Unfortunately, in describing its conclusion, the Fretwell majority opined that
“an analysis focusing solely on mere outcome determination, without attention to

529 U.S. 362, 391 (2000) (“The Virginia Supreme Court erred in holding that our
decision in Lockhart v. Fretwell . . . modified or in some way supplanted the rule set
down in Strickland ”); see also Glover v. United States, 531 U.S. 198, 203 (2001)(“[O]ur
holding in Lockhart [v. Fretwell] does not supplant the Strickland analysis.”)
Fretwell, supra 506 U.S. at 370 (quoting Nix v. Whiteside, 475 U.S. 157, 175 (1986),
and Strickland, supra.)
32

33

Fretwell, supra, 506 U.S. at 373 (O’Conner, J. concurring).

34

Id.

-14-

whether the result of the proceeding was fundamentally unfair or unreliable, is
defective.” 35 Since that time, many lower court rulings have embraced the “mere
outcome determination” language to conclude that in addition to determining the
probability of a different result, they were also expected to determine whether the
different result comported with fundamental fairness.
This Court’s subsequent decisions have generally embraced Justice O’Conner’s
“narrow” view of Fretwell, and sought to roll back its emphasis on “mere outcome
determination.”

First, in Williams, a state trial court found that there was a

reasonable probability of a different result had counsel investigated and presented
the substantial mitigation evidence presented, in light of the absence of mitigation
evidence offered at the first trial. The Virginia Supreme Court disagreed, finding
that the trial court’s analysis “demonstrates an emphasis on mere outcome
determination, without proper attention to whether the result of the criminal
proceeding was fundamentally unfair or unreliable.” 36

Emphasizing Justice

O’Conner’s concurring opinion, this Court reversed, finding that the Virginia
Supreme Court’s decision was both contrary to and an unreasonable application of
Strickland for the purposes of § 2254. 37

35

Id., majority opinion, at 369.

Williams v. Warden of the Mecklenburg Correctional Center, 254 Va. 16, 27, 487
S.E.2d 194, 200 (1997)

36

37

Williams v. Taylor, supra at 397.

-15-

Subsequently, in Glover, the Seventh Circuit interpreted Fretwell to authorize
a finding of no prejudice when it concluded that the difference in sentence would not
be sufficient to warrant relief.

Once again emphasizing Justice O’Conner’s

concurring opinion, this Court rejected that analysis as a misapplication of Fretwell. 38
Finally, in Lafler the warden in a § 2254 case relied on Fretwell’s “mere
outcome determination” language to argue that Lafler was not deprived of
fundamental fairness by his counsel’s failure to communicate a plea offer, because he
nevertheless received a “fundamentally fair” trial. Once again emphasizing Justice
O’Conner’s concurring opinion, this Court rejected that conclusion. As this Court
explained, “Fretwell and Nix are instructive in that they demonstrate ‘there are also
situations in which it would be unjust to characterize the likelihood of a different
outcome as legitimate ‘prejudice,’ because defendants would receive a windfall as a
result of the application of an incorrect legal principle or a defense strategy outside
the law.” 39 However, where “the injured client seeks relief from counsel's failure to
meet a valid legal standard, not from counsel's refusal to violate it”, Nix and Fretwell
have no application. 40
This Court’s attempts to steer federal courts back to Strickland for guidance
have failed, because lower courts continue to rely on Fretwell to deny relief in § 2254

38

Glover v. United States, supra at 203.

39

Id. at 167.

40

Id.

-16-

cases. In the post Williams era, at least six circuits have invoked Fretwell’s
fundamental fairness standard to evaluate whether a state court’s resolution of a
claim of Strickland prejudice was objectively unreasonable, without reference to
Williams’ or Lafler’s limitations. 41 The Sixth Circuit, in particular, has invoked

v. Bennett, 296 F.3d 58, 63 (2d Cir. 2002)(Noting in light of Fretwell “[t]he
prejudice inquiry “focuses on the question whether counsel's deficient performance
renders the result of the trial unreliable or the proceeding fundamentally unfair.
Unreliability or unfairness does not result if the ineffectiveness of counsel does not
deprive the defendant of any substantive or procedural right to which the law entitles
him”); McAfee v. Thaler, 630 F.3d 383, 394 (5th Cir. 2011)(Quoting Fretwell to require
a finding of fundamental unfairness, noting that “[u]nreliability or unfairness does
not result if the ineffectiveness of counsel does not deprive the defendant of any
substantive or procedural right to which the law entitles him”); Hanna v. Ishee, 694
F.3d 596, 613 (6th Cir. 2012)(“Thus, analysis focusing solely on mere outcome
determination, without attention to whether the proceeding was fundamentally
unfair or unreliable, is defective”, quoting Fretwell); Makiel v. Butler, 782 F.3d 882,
910 (7th Cir. 2015)(Noting that Fretwell “reject[ed] petitioner's argument that
prejudice under Strickland should be evaluated under the laws existing at the time
of trial and concluding that prejudice “focuses on the question whether counsel's
deficient performance renders the result of the trial unreliable or the proceeding
fundamentally unfair”); Gallegos v. Ryan, 820 F.3d 1013, 1033 (9th Cir.
2016)(“Moreover, and dispositively, any such contention would fail at the Strickland
prejudice prong, under the Supreme Court's application of that prong in Lockhart v.
Fretwell); Johnston v. Secretary, Florida Department of Corrections, 949 F.3d 619,
639 (11th Cir.)(2020)(“The prejudice inquiry, after all, is “focuse[d] on the question
whether counsel's deficient performance renders the result of the trial unreliable or
the proceeding fundamentally unfair”, quoting Fretwell); renders the result of the
trial unreliable or the proceeding fundamentally unfair”, quoting Fretwell). Even
after Lafler, Federal courts continue to apply Fretwell in § 2255 cases as well. See,
e.g., United States v. Deiter, 890 F.3d 1203, 1209 (10th Cir. 2018)(Noting that “[t]he
focus of the [prejudice] inquiry is “whether counsel's deficient performance United
States v. Bernard, 762 F.3d 467, 471 (5th Cir. 2014)(“To establish prejudice under the
second prong of the Strickland test, the defendant must show that his attorney's
errors were so serious that they rendered “the result of the trial unreliable or the
proceeding fundamentally unfair”, quoting Fretwell).
41Aeid

-17-

Fretwell a propos of no state court reasoning more than a half dozen times in § 2254
cases decided post-Williams. 42 This is problematic for two reasons. First, in light of
the high degree of deference afforded state court decisions under § 2254(d), allowing
the federal courts to approve of an analysis beyond “mere outcome determination”
essentially closes the door on review of Strickland claims. The requirement that no
reasonable jurist would disagree with the ruling, and the “double deference” it
engenders, has already received a fair amount of criticism for being inadequately
protective of constitutional rights. 43 As the Sixth Circuit’s opinion in this case makes
abundantly clear, where all that is required to reject a claim for relief is a finding
that “reasonable jurists” might disagree that relief is warranted, freeing the Court’s
Strickland analysis from the shackles of “mere outcome determination” will doom the

In addition to the instant case, and Hanna v. Ishee, supra, the Sixth Circuit has
used the Fretwell “fundamental fairness” standard of prejudice in § 2254 cases in
several cases, including Coley v. Bagley, 706 F.3d 741, 752 (6th Cir. 2013), Black v.
Bell, 664 F.3d 81, 103 (6th Cir. 2011), Tinsley v. Million, 399 F.3d 796, 802 (6th Cir.
2005); Baze v. Parker, 371 F.3d 310, 321 (6th Cir. 2004); Cooey v. Coyle, 289 F.3d 882,
892 (6th Cir. 2002).
42

See, e.g., Noam Biale Beyond A Reasonable Disagreement: Judging Habeas Corpus,
83 U. Cin. L. Rev. 1337, 1360 (2015)(“Following the passage of AEDPA and the
Supreme Court's decision in Williams, scholars debated how the “unreasonable
application” clause should be interpreted and struggled to develop a workable
standard for adjudicating habeas cases. . . . Professor Ritter has described
the Richter standard as “dangerous and improper” and has argued, “Far more than
deference, this test requires acquiescence.” Professor Marceau has called it ‘one of the
most uncharitable standards of review known to law.’ Others have described it as
‘super-deferential,’ ‘completely untethered from Supreme Court precedent,’ and, even
more dramatically, ‘an unworkable . . . standard that fundamentally contradicts
American common law decision-making.’”)
43

-18-

claim.
This problem is compounded significantly by the fact that the Sixth Circuit,
like a majority of circuits, interprets § 2254(d) to require that “[i]n assessing the
reasonableness of the state court's application of federal law, ... federal courts are to
review the result that the state court reached, not whether [its decision] [was] well
reasoned.” 44 Rather than viewing § 2254 (d) as a gateway through which a state court
litigant must pass before de novo review is offered, the majority rule circuits have

Holland v. Rivard, 800 F.3d 224, 235–36 (6th Cir. 2015)(emphasis and punctuation
in original, quoting Robinson v. Polk, 438 F.3d 350, 358 (4th Cir.2006)). The First,
Second, Fourth, Fifth, Seventh, Eighth and Tenth Circuits agree, finding that it is
the result (sometimes referred to as the “decision” or “judgment”) that matters, not
the reasoning. See Clements v. Clarke, 592 F.3d 45, 55 (1st Cir. 2010)(“It is the result
to which we owe deference, not the opinion expounding it.”); Cruz v. Miller, 255 F.3d
77, 86 (2d Cir. 2001)(Noting that the reasoning offered by state courts is generally
irrelevant, because “we are determining the reasonableness of the state courts'
‘decision,; 28 U.S.C. § 2254(d)(1), not grading their papers.”); Neal v. Puckett, 239 F.3d
683, 696 (5th Cir.2001)(“It seems clear to us that a federal habeas court is authorized
by Section 2254(d) to review only a state court's ‘decision,’ and not the written opinion
explaining that decision.”); Whatley v. Zatecky, 833 F.3d 762, 775 (7th Cir. 2016)(After
Richter “we. . .no longer attach significance to the state court’s expressed reasons, we
would still apply AEDPA deference to the judgment”); Williams v. Roper, 695 F.3d
825, 831 (8th Cir. 2012)(“In reviewing whether the state court's decision involved an
unreasonable application of clearly established federal law, we examine the ultimate
legal conclusion reached by the court, . . . not merely the statement of reasons
explaining the state court's decision.”). The Third, Ninth and Eleventh circuits take
the opposite view, requiring that “when the state court pens a clear, reasoned opinion,
federal habeas courts may not speculate as to theories that ‘could have supported’ the
state court's decision. Dennis v. Secretary, Pennsylvania Department of Corrections,
834 F.3d 263, 283 (3d Cir. 2016); see also Frantz v. Hazey, 533 F.3d 724, 737 (9th Cir.
2008)(We confine our § 2254(d)(1) analysis to the state court's actual decisions and
analysis); Johnson v. Secretary, DOC, 643 F.3d 907, 930 (11th Cir. 2011)(Finding that
Richter did not apply “because the Florida Supreme Court did provide an explanation
of its decision . . ..”
44

-19-

essentially transformed § 2254(d)(1) into a single stage process, i.e., a set of elements
that if proven, ensures relief will be granted if the error is not harmless. 45 After all,
by reviewing all possible explanations, the majority rule circuits have left nearly
nothing to review if they find that the state court’s result was wrong beyond any
possibility of fairminded disagreement.
In a world where Strickland prejudice is completely untethered from the
“reasonable probability of a different result” standard, the duty of courts to review
every possible explanation for a state court result will functionally take those circuits
off the board for habeas review of ineffective assistance of counsel claims. Indeed,
that seems to be what is occurring. All of the cases cited above where Fretwell was
invoked as a standard of prejudice were cases where the Petitioner’s claim was
denied, for example.
This Court’s decisions envision § 2254(d) as permitting a more thorough de
novo review where, as here, the state court ruling appears flatly mistaken. 46 In this
For example, Judge Posner explained the reason for requiring a review of the result
alone was that “[a] federal court in a habeas corpus proceeding cannot remand the
case to the state appellate court for a clarification of that court's opinion; all it can do
is order a new trial, though the defendant may have been the victim not of any
constitutional error but merely of a failure of judicial articulateness.” Hennon v.
Cooper, 109 F.3d 330, 335 (7th Cir. 1997). Clearly, Judge Posner was not
contemplating a second stage, after the “failure of judicial articulateness”, which
would ensure that there be an actual constitutional violation established.
45

See, e.g., Horn v. Banks, 536 U.S. 266, 272 (2002)(“none of our post-AEDPA cases
have suggested that a writ of habeas corpus should automatically issue if a prisoner
satisfies the AEDPA standard”); Cullen v. Pinholster, 563 U.S. 170, 205, 131 S. Ct.
1388, 1412, 179 L. Ed. 2d 557 (2011)(Breyer, concurring in part)(noting that further
proceedings are appropriate “[i]f the federal habeas court finds that the state-court
decision fails (d)'s test . . .”
46

-20-

case, had the Sixth Circuit applied that logic, it would have found that the Kentucky
Supreme Court’s decision was contrary to, or at the least and unreasonable
application of, Strickland v. Washington and Smith v. Robbins, and then conducted a
more thorough de novo review to evaluate whether Pollini’s constitutional rights were
violated under § 2254(a). That second stage would have allowed the Sixth Circuit to
evaluate whether the logic of Fretwell should be applied to this case. However, in
doing so the Sixth Circuit would have to do more than speculate about what might
have been, it would have had to make a firm decision about whether the logic applied,
and why.
II. This Court Should Accept Review to Determine Whether Strickland
and Smith Require Prejudice to be Evaluated at the Time of the
Original Appellate Decision.
On at least a half dozen occasions in the last ten years, this Court has had to
reverse Sixth Circuit decisions that employ the same logic that is at work in this
case. 47

Finding that “AEDPA's carefully constructed framework ‘would be

undermined if habeas courts introduced rules not clearly established under the guise
of extensions to existing law’, this Court has found that “clearly established Federal
law’ for purposes of § 2254(d)(1) includes only ‘the holdings, as opposed to the dicta,
of this Court's decisions.’” 48 A determination of what the “clearly established law” is,
logically precedes any evaluation of whether a state court decision was contrary to or

Howes v. Fields, 565 U.S. 499 (2011); Parker v. Matthews, 567 U.S. 37 (2012);
Metrish v. Lancaster, 569 U.S. 351 (2013); White v. Woodall, 572 U.S. 415 (2014);
White v. Wheeler, 577 U.S. 73 (2015); Shoop v. Hill, ___ U.S. ___, 139 S.Ct. 504 (2019).
47

48

White v. Woodall, 572 U.S. 415, 419, 426 (2014)
-21-

an unreasonable application of that law. However, repeatedly this Court has had to
reverse Sixth Circuit cases where the court failed to clearly identify that law, and
instead speculated about where that law would go.
The same faulty logic is at work in this case. As noted above, in Robbins this
Court applied Strickland to a claim of ineffective assistance of appellate counsel and
held that “he must show a reasonable probability that, but for his counsel's [deficient
performance] he would have prevailed on his appeal.” 49 It is difficult to see much
room for interpretation in that statement, and as the Sixth Circuit acknowledged,
other circuits, and even other panels of the Sixth Circuit, have found that Strickland
requires merely an evaluation of whether the result of the appeal would be different
at the time the appeal was decided, rather than at the time of post-conviction
review. 50
Indeed, it is hard to find any support for the Sixth Circuit’s statement that a
straightforward application of Strickland is “in tension with [Fretwell].” 51 Robbins
was decided well after Fretwell, and made no mention of it. More to the point, this

49

Robbins, supra at 285 (emphasis added).

Pollini v. Robey, supra at 496 (acknowledging that a different result was reached
in Shaw v. Wilson, 721 F.3d 908 (7th Cir. 2013), and Young v. Dretke, 356 F.3d 616
(5th Cir. 2004), as well as McFarland v. Yukins, 356 F.3d 688, 699 (6th Cir. 2004)(“in
order to decide whether McFarland can present her claim of ineffective assistance of
trial counsel, we have to decide whether there is a reasonable probability that the
claim would have prevailed at the time counsel failed to raise it”).
50

51

Id., at 495.

-22-

Court has specifically held that Fretwell, “do[es] not justify a departure from a
straightforward application of Strickland when the ineffectiveness of counsel does
deprive the defendant of a substantive or procedural right to which the law entitles
him.” 52 Here, it is undisputed the substantive right that Pollini lost – the right to
participate in the formulation of responses to jury questions – is as applicable to him
today as it was at the time of the direct appeal. Moreover, unlike Fretwell, who was
seeking a life sentence he was not entitled to as a matter of law, if granted relief the
end result in Pollini’s would be the trial he was entitled to at the start, one where he
was able to participate in the formulation of important jury questions. Granting
Pollini his first fair trial in accordance with the rules of the jurisdiction is hardly a
“windfall.”
There is no reason for the logic of Woodall and similar decisions would apply
any differently to a decision where a federal court denies relief, than it would to a
case where relief is granted. The requirement of clearly established Federal law is
part of the statute, and should apply equally to any § 2254(d) decision. Indeed, as the
Sixth Circuit’s decision in this case plainly demonstrates, the effect of a failure to
articulate the clearly established law has a more significant negative effect on the
“unreasonable application” analysis for prisoners, than for the state. After all, in a
system where the possibility that a fair-minded jurist might disagree is enough to
overrule the claim, a claim based on legal speculation is essentially guaranteed to

52

Williams v. Taylor, supra at 393 (emphasis in original).
-23-

fail.
Given that the Sixth Circuit has clearly found that he result would have been
different, and did not offer any defense of the actual reasoning offered by the
Kentucky Supreme Court, which was clearly mistaken, the appropriate approach for
the Sixth Circuit to have taken would be to find that the case passed through the
threshold of § 2254(d), and then conducted a de novo review. As noted above, in that
review, the Court would still be permitted to find that Pollini is not being held in
violation of the Federal constitution, and is therefore would not entitled to habeas
relief under § 2254(a). 53

However, the outcome of that review is not obvious.

Allowing a state court to retrospectively apply a harmless error test is a very different
decision than evaluating whether the substantive right has changed. Since the state
court decision in this case, the Kentucky Supreme Court appears to be moving back
towards viewing these errors as structural. 54 Evaluating whether the result would
be different provides a much more robust standard on which to base critical Sixth
Amendment decisions than allowing courts to use the shifting sands of harmless error
to determine whether or not to grant relief.
III. This Case is an Appropriate Vehicle for Reviewing These Issues.
The facts of this case are uniquely clear, and the legal issues starkly drawn,
making it an appropriate case to accept for review. The record leaves no doubt that:
1. The ineffectiveness claim was presented to the Kentucky Supreme Court;

53

Supra, note 50.

54

Eversole v. Commonwealth, 600 S.W.3d 209 (Ky. 2020)
-24-

2. The Kentucky Supreme Court refused to decide whether Pollini would have
prevailed in his appeal; and
3. “Pollini likely would have prevailed had his counsel raised the issue.” 55
These facts, which are all that is required to fully resolve the legal issues presented,
ensure that this Court will not be mired in an internecine factual dispute in this
matter.
Granting certiorari in this case, and especially reversing for the reasons in
Argument II above, would do more than merely give Mr. Pollini his first review of his
ineffective assistance of counsel claim in accordance with the rules of Strickland. It
would also have salutary effects on the bench and bar. First, it will clarify yet again
that courts should not rely upon Fretwell to modify the standard this Court clearly
laid down in Strickland. Second, it will provide clarity on the extent to which the
state court reasoning is relevant to federal court review, especially in a Strickland
claim. Finally, it will provide valuable clarity that the requirement of first identifying
the clearly established law cannot be waived in cases where habeas relief is denied.
CONCLUSION
WHEREFORE, for the reasons set forth above, Petitioner Jasper Pollini
respectfully requests that this Petition be granted, and the judgment herein reversed.
Respectfully submitted,
__________________________________
Timothy G. Arnold, Director
Post-Trial Division
Department of Public Advocacy
55

Pollini v. Robey, supra, at 493.
-25-

5 Mill Creek Park
Frankfort, KY 40601
(502) 564-8006
(502) 695-6769 (fax)
tim.arnold@ky.gov
April 26, 2021

-26-

_________________________________
No. _______________
__________________________________
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
____________________________________
JASPER POLLINI, Petitioner
v.
AMY ROBEY, WARDEN,
LUTHER LUCKETT CORRECTIONAL COMPLEX, Respondent
____________________________________________
APPENDIX
____________________________________________
Pollini v. Robey, 981 F.3d 486 (6th Cir. 2020) .............................. Appendix (“Apx”) A.
Pollini v. Litteral, 3:14-CV-689-DJH-RSE, 2019 WL 236721 (W.D. Ky. Jan. 15, 2019)
.............................................................................................................................. Apx B.
Commonwealth v. Pollini, 437 S.W.3d 144 (Ky. 2014) ........................................ Apx C.
Pollini v. Commonwealth (Ky.Ct.App., 2012) ...................................................... Apx D.
Pollini v. Commonwealth, Jefferson (Ky.) Circuit Court, 2009 ......................... Apx E.

Pollini v. Robey, 981 F.3d 486 (2020)

981 F.3d 486
United States Court of Appeals, Sixth Circuit.

Jasper POLLINI, Petitioner-Appellant,
v.
Amy ROBEY, Warden,
Respondent-Appellee.
No. 19-5131
|
Argued: August 5, 2020
|
Decided and Filed: November 25, 2020
Synopsis
Background: Following affirmance on direct review
of petitioner's convictions for murder, burglary, and
receiving stolen property, reduction of his sentence to life
imprisonment, and denial of state collateral review, 437
S.W.3d 144, petitioner sought federal writ of habeas corpus.
The United States District Court for the Western District
of Kentucky, David J. Hale, J., 2019 WL 236721, denied
petition. Certificate of Appealability was granted.

Holdings: The Court of Appeals, Readler, Circuit Judge, held
that:
Kentucky Supreme Court's decision to apply “fundamental
fairness” standard to its review of defendant's ineffective
assistance of counsel claim, rather than the “structural error”
standard, was not contrary to clearly established federal law;
Kentucky Supreme Court's determination that there was
no harm in trial court's decision not to read transcript of
witness's conversation with police to jury was not based on
an unreasonable determination of the facts; and
petitioner did not procedurally default his claim that
his appellate counsel was ineffective for only requesting
resentencing, rather than a new trial.
Affirmed in part, vacated in part, and remanded.

*488 Appeal from the United States District Court for
the Western District of Kentucky at Louisville. No. 3:14cv-00689—David J. Hale, District Judge.
Attorneys and Law Firms
ARGUED: Timothy G. Arnold, DEPARTMENT OF PUBLIC
ADVOCACY, Frankfort, Kentucky, for Appellant. James C.
Shackleford, OFFICE OF THE ATTORNEY GENERAL,
Frankfort, Kentucky, for Appellee. ON BRIEF: Timothy
G. Arnold, DEPARTMENT OF PUBLIC ADVOCACY,
Frankfort, Kentucky, for Appellant. James C. Shackleford,
OFFICE OF THE ATTORNEY GENERAL, Frankfort,
Kentucky, for Appellee.
Before: GILMAN, BUSH, and READLER, Circuit Judges.

OPINION
CHAD A. READLER, Circuit Judge.
Jasper Pollini committed a burglary, fled the scene, and, upon
returning to retrieve his burglary tools, shot and killed a
man. Following his conviction in Kentucky state court, Pollini
asserted numerous grounds for relief in a federal habeas
petition. *489 The district court, however, rejected each of
them.
We granted Pollini a certificate of appealability with respect to
two claims relating to the alleged ineffective assistance of his
appellate counsel in state court. On the first claim, we agree
with the district court that the claim fails the prejudice prong
of Strickland v. Washington, 466 U.S. 668, 104 S.Ct. 2052, 80
L.Ed.2d 674 (1984). But for the other, we disagree that Pollini
procedurally defaulted the claim. Accordingly, we affirm in
part, vacate in part, and remand the case to the district court
for further proceedings.

I.
Pollini's Crimes And Trial. While burglarizing a garage late
one evening, Jasper Pollini was confronted by Dan Zeigler,
the garage's owner, at which point Pollini fled the scene.
Pollini v. Commonwealth, 172 S.W.3d 418, 421 (Ky. 2005).
Zeigler then alerted his neighbor, Byron Pruitt, that a burglar
was in the area. Id.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix A, Pollini v. Robey, 981 F.3d 486 (6th Cir. 2020), pg. 1

1

Pollini v. Robey, 981 F.3d 486 (2020)

Pollini soon realized he had left his tools in Zeigler's garage.
Arming himself with a handgun, Pollini recruited his sister,
Crystal Plank, to drive him back to the garage. Id. at 421–22.
As the two neared the garage, Pruitt approached their car with
a flashlight. Id. Seeing a light in the distance, Pollini fired a
gun shot into the dark. Id. Tragically, the shot struck and killed
Pruitt.
Pollini was charged with various crimes, including murder.
Plank was charged with facilitation of murder. Following their
arrests, Pollini and Plank each gave a recorded statement
to the police recounting the events that unfolded the night
of Pruitt's murder. Both statements assert that Pollini did
not intend to kill Pruitt when the shot was fired. Because
their respective charges arose out of the same set of facts,
the two were tried together as co-defendants. During trial,
Plank's attorney prepared a transcript of Plank's statement to
the police and sought to admit the transcript along with the
audiotape of her statement into evidence. The court admitted
the audiotape. But it denied admission of the transcript on
the grounds that the Commonwealth had not been given the
opportunity to verify the transcript's accuracy in its entirety.
During closing arguments, however, the Commonwealth was
permitted to exhibit a portion of the transcript to the jury.
Yet during its deliberations, the jury had access to only the
audiotape of Plank's statement and not the transcript.
This proved relevant when the jury had difficulty locating
or understanding a portion of Plank's statement on the
audiotape. That obstacle prompted the jury to write the
judge to ask: “Does there exist a transcript of the Plank
conversation w/Police? Difficult to locate on tape, if so, can
we pls request?” Without communicating with the parties,
the judge responded to the jury: “There's none available.”
There is no dispute between the parties that this ex parte
jury communication violated Kentucky Rule of Criminal
Procedure 9.74, which prohibits judge-jury communication
without apprising counsel of the communication. See Pollini
v. Litteral, No. 3:14-cv-689-DJH-RSE, 2019 WL 236721 at
*3, 2019 U.S. Dist. LEXIS 7459 at *8 (W.D. Ky. Jan. 15,
2019); see also Ky. RCr 9.74 (“No information requested by
the jury or any juror after the jury has retired for deliberation
shall be given except in open court in the presence of the
defendant ... and the entire jury, and in the presence of or after
reasonable notice to counsel for the parties.”).
Following its deliberations, the jury found Pollini guilty
of murder, burglary in the first degree and second degree,
and *490 receiving stolen property. During the ensuing

sentencing phase, the court submitted to the jury the following
aggravated circumstance for their consideration: Was Pollini
in the process of committing burglary when he killed Pruitt?
The jury answered in the affirmative, subjecting Pollini to an
increased range of sentencing options. From those options,
the jury recommended a life sentence without the possibility
of parole for 25 years. The trial judge agreed and handed down
the recommended sentence.
Pollini's Direct Appeals. Pollini raised a host of issues
on direct appeal. Chief among them was his contention
that there was insufficient evidence to justify his sentence
because he was not committing a burglary when he killed
Pruitt. According to Pollini, the shooting occurred after the
burglary had ended, when Pollini was returning to recover
his tools. The Kentucky Court of Appeals found no merit
in Pollini's argument. But the Kentucky Supreme Court did,
and accordingly vacated Pollini's sentence and remanded the
case. Because Pollini's appellate counsel failed to seek a
new trial to remedy the jury's error, the remand was limited
to a resentencing without the inclusion of the aggravating
circumstance. See Pollini, 172 S.W.3d at 432. Notable here
is the fact that Plank, in raising a similar challenge to
the jury's finding that the two were committing a burglary
at the time of the killing, did argue for a new trial on
appeal. And when the Kentucky Court of Appeals vacated
her conviction for facilitating burglary in the first degree for
insufficient evidence, it remanded her case for a new trial.
Plank v. Commonwealth, No. 2003-CA-001861-MR, 2005
WL 1313838, at *8–9, 2005 Ky. App. Unpub. LEXIS 777, at
*22–25 (Ky. Ct. App. June 3, 2005).
On remand, Pollini's sentence was reduced to simple
life imprisonment. Pollini v. Commonwealth, No. 2006SC-000835-MR, 2008 WL 203035, at *1, 2008 Ky. Unpub.
LEXIS 17, at *2 (Ky. Jan. 24, 2008). Pollini again appealed,
but to no avail. And here again, it bears comparing what
Pollini and Plank argued in their respective appeals. In neither
of his direct appeals did Pollini argue that the trial judge
violated Rule 9.74 when it communicated ex parte with the
jury. Plank, by comparison, did raise the ex parte issue on
direct appeal. And while the Kentucky Court of Appeals
vacated her conviction on other grounds, the court also found
it “very bothersome ... that counsel was never even given
notice that [the jury] had requested the transcript.” Plank,
2005 WL 1313838, at *9, 2005 Ky. App. Unpub. LEXIS 777,
at *25.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix A, Pollini v. Robey, 981 F.3d 486 (6th Cir. 2020), pg. 2

2

Pollini v. Robey, 981 F.3d 486 (2020)

Pollini's State Court Collateral Attack. Having exhausted his
direct appeal options, Pollini, with new counsel, collaterally
attacked his state court proceedings. See Ky. RCr 11.42
(governing motions to vacate, set aside, or correct sentences).
Pollini asserted several claims of ineffective assistance of
counsel. Among them was Pollini's Rule 9.74 argument that
his prior counsel was constitutionally ineffective, in violation
of the Sixth Amendment standard articulated in Strickland
v. Washington, 466 U.S. 668, 104 S.Ct. 2052, 80 L.Ed.2d
674 (1984), because “counsel failed to raise the improper ex
parte communication between the trial court and the jury.”
Unlike the other ineffective assistance of counsel claims
Pollini asserted, which he expressly limited to the conduct of
his trial counsel, Pollini did not specify which counsel—trial
or appellate—failed to raise the Rule 9.74 issue.
Following the trial court's denial of his request for collateral
relief, Pollini appealed. The Kentucky Court of Appeals
interpreted Pollini's argument regarding the failure to raise
the Rule 9.74 violation as *491 an error by “both his trial
and appellate counsel.” Pollini v. Commonwealth, No. 2009CA-000964-MR, 2010 LEXIS 128, at *15 (Ky. Ct. App.
July 16, 2010). As to Pollini's trial counsel, the appeals
court found nothing that constituted deficient performance.
Id. at *15–16. And as to Pollini's appellate counsel, the
appeals court explained that Kentucky law did not recognize
ineffective assistance of appellate counsel claims in cases
where an appeal was decided following a merits review. Id. at
*15. Rather, Kentucky law recognized claims for ineffective
appellate counsel in just two instances: (1) if a defendant's
appeal was dismissed because of ineffective assistance of
counsel; or (2) if a defendant's conviction was not appealed
due to counsel's neglect. Boykin v. Webb, 541 F.3d 638,
647–48 (6th Cir. 2008) (citing Hicks v. Commonwealth, 825
S.W.2d 280, 281 (Ky. 1992)). Accordingly, the Kentucky
Court of Appeals held that Pollini's ineffective assistance of
appellate counsel claim was not a “cognizable issue in this
jurisdiction.” Pollini, 2010 LEXIS 128, at *15 (quoting Lewis
v. Commonwealth, 42 S.W.3d 605, 614 (Ky. 2001)).
Proceeding pro se, Pollini sought discretionary review in
the Kentucky Supreme Court. Around the same time, the
Kentucky Supreme Court, in Hollon v. Commonwealth,
overruled Hicks and “recognize[d] [ineffective assistance of
appellate counsel] claims premised upon appellate counsel's
alleged failure to raise a particular issue on direct appeal.” 334
S.W.3d 431, 436 (Ky. 2010) (overruling Hicks, 825 S.W.2d
at 281). In light of this change in law, the Kentucky Supreme
Court remanded Pollini's case for consideration as to whether

Pollini's direct appeal counsel was ineffective when he failed
to raise the alleged ex parte contact between the judge and
jury. See Pollini v. Commonwealth, No. 2009-CA-000964MR, 2011 LEXIS 246, at *1, *8 (Ky. Ct. App. Dec. 22, 2011).
On remand, the Kentucky Court of Appeals determined that
appellate counsel's failure to raise the Rule 9.74 violation
constituted deficient performance that was “egregious,” and
thus amounted to ineffective assistance of appellate counsel.
Id. at *14–15. In reaching that conclusion, the appeals court
noted its earlier observation in Plank's companion appeal that
the ex parte communication was “very bothersome.” Id. at
*14; see also Plank, 2005 WL 1313838, at *9, 2005 Ky. App.
LEXIS 777, at *25. On this basis, the appeals court vacated
Pollini's conviction. Pollini, 2011 LEXIS 246, at *15.
But Pollini's relief was fleeting. The Commonwealth appealed
to the Kentucky Supreme Court, which in turn reinstated
Pollini's conviction. Commonwealth v. Pollini, 437 S.W.3d
144, 153 (Ky. 2014). After acknowledging the Rule 9.74
violation, the Kentucky Supreme Court assessed what
standard of review should apply to that violation. At the
time of Pollini's conviction and direct appeal, Kentucky
arguably applied a strict structural error standard to Rule 9.74
violations. See, e.g., Mills v. Commonwealth, 44 S.W.3d 366,
372 (Ky. 2001) (citing and quoting Lett v. Commonwealth,
284 Ky. 267, 144 S.W.2d 505 (1940), for the apparent
proposition that prejudice is not required for reversal under
Rule 9.74). But see Johnson v. Commonwealth, 12 S.W.3d
258, 266 (Ky. 1999) (“Long ago, we joined the trend away
from a strict or technical application of the rules forbidding
conversations with or among jurors.” (citing Cosby v.
Commonwealth, 451 S.W.2d 653, 654 (Ky. 1970))). But while
Pollini's case was pending on collateral review, the *492
Kentucky Supreme Court adopted a “fundamental fairness”
standard of review for Rule 9.74 violations, effectively a
harmless error standard, which made it more difficult for
appellants to prevail. See McAtee v. Commonwealth, 413
S.W.3d 608, 626 (Ky. 2013) (“[W]e review for harmless error,
which, in the context of ex parte communications between
judge and jury, we define as contact that does not impugn
the fundamental fairness of an otherwise constitutionally
acceptable trial.” (cleaned up)). And notwithstanding the
more defendant-friendly standard in effect at the time
of Pollini's direct appeal, the Kentucky Supreme Court
concluded it was free to apply the new harmless error
standard to Pollini's case because the standard of review
for a Rule 9.74 violation was an issue of procedure (rather
than substance) under Kentucky law. Pollini, 437 S.W.3d
at 151. Applying this new standard, the Kentucky Supreme

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix A, Pollini v. Robey, 981 F.3d 486 (6th Cir. 2020), pg. 3

3

Pollini v. Robey, 981 F.3d 486 (2020)

Court found that the trial court's Rule 9.74 violation was
not significant enough to “impugn the fundamental fairness
of an otherwise constitutionally acceptable trial,” rendering
the error harmless. Id. at 151–52 (citation omitted). Pollini's
conviction was therefore reinstated. Id. at 153.
One background matter deserves further emphasis. As already
noted, Pollini, throughout his state court collateral attack,
failed to raise an argument that he presses today: appellate
counsel's alleged ineffective assistance in failing to seek a
new trial in response to the jury's erroneous conclusion that
Pollini was still in the process of committing a burglary when
he shot and killed Pruitt. Unlike Pollini's Rule 9.74 ineffective
assistance of counsel claim, which the Kentucky courts
interpreted broadly to apply to both his trial and appellate
counsel, his ineffective assistance claim regarding the failure
to seek a new trial involved solely Pollini's appellate counsel.
And a claim of that ilk did not exist under Kentucky law at
the time Pollini filed his state collateral attack. Ordinarily, the
same would have been true for Pollini's Rule 9.74 ineffective
assistance of appellate counsel claim. But since the Kentucky
courts deemed Pollini to have raised that claim at the time
Hollon was announced, the claim was addressed and resolved
by the Kentucky courts on collateral review.

II.
Two of Pollini's habeas challenges are before us today. First,
Pollini argues that the Kentucky Supreme Court unreasonably
applied the ineffective assistance of counsel standards
articulated in Strickland when it utilized the harmless (rather
than structural) error standard in reviewing the Rule 9.74
violation. Second, Pollini claims that the remedy for his
successful challenge on appeal to the jury verdict should
have been a new trial, not merely resentencing, and that his
appellate counsel was thus ineffective for failing to request a
new trial. On the first claim, the district court rejected Pollini's
claim on the merits. Pollini, 2019 WL 236721, at *3–4, 4–5,
2019 U.S. Dist. LEXIS 7459, at *10, 12. As to the second,
the district court concluded that the claim was procedurally
defaulted because Pollini did not raise it in his state court
collateral attack. Id. at *5, 2019 U.S. Dist. LEXIS 7459, at
*13–14.
The Antiterrorism and Effective Death Penalty Act (AEDPA)
guides our review. Under AEDPA, we may award Pollini
habeas relief only if (1) the Kentucky court's decision was
contrary to, or an unreasonable application of, federal law,

or (2) the Kentucky court's decision was “based on an
unreasonable determination of the facts.” *493 Harrington
v. Richter, 562 U.S. 86, 100, 131 S.Ct. 770, 178 L.Ed.2d
624 (2011) (quoting 28 U.S.C. § 2254(d)(1), (d)(2)). In
this context, “federal law” means law as “determined by
the Supreme Court of the United States.” Abby v. Howe,
742 F.3d 221, 226 (6th Cir. 2014) (quoting 28 U.S.C. §
2254(d)). And because “habeas corpus is a ‘guard against
extreme malfunctions in the state criminal justice systems,’
not a substitute for ordinary error correction through appeal,”
Harrington, 562 U.S. at 102–03, 131 S.Ct. 770 (quoting
Jackson v. Virginia, 443 U.S. 307, 332 n.5, 99 S.Ct. 2781,
61 L.Ed.2d 560 (1979) (Stevens, J., concurring in the
judgment)), AEDPA requires that we defer to the Kentucky
Supreme Court's application of federal law if “ ‘fairminded
jurists could disagree’ on the correctness of the state court's
decision.” Id. at 101, 131 S.Ct. 770 (quoting Yarborough v.
Alvarado, 541 U.S. 652, 664, 124 S.Ct. 2140, 158 L.Ed.2d
938 (2004)).
A. Pollini Fails To Show That The Kentucky Supreme
Court's Treatment Of His Rule 9.74 Claim Ran Afoul
Of AEDPA.
With this high bar in mind, we turn to Pollini's claim regarding
his appellate counsel's alleged ineffective assistance in failing
to seek relief for the trial court's Rule 9.74 violation.
Strickland provides the relevant federal law by which we
measure the state court decision at issue. For Pollini to
succeed, then, the Kentucky Supreme Court's resolution of
the Rule 9.74 claim must have been (1) contrary to—or
an unreasonable application of—Strickland, or (2) based on
an unreasonable determination of the facts. See 28 U.S.C.
§ 2254(d)(1), (d)(2). And to prevail on a Strickland-based
ineffective assistance of appellate counsel claim, Pollini
must satisfy two prongs: (1) that his appellate counsel was
deficient, and (2) that the deficiency prejudiced him. Hill v.
Mitchell, 842 F.3d 910, 939, 945–46 (6th Cir. 2016) (citing
Strickland, 466 U.S. at 687, 104 S.Ct. 2052 and Smith v.
Robbins, 528 U.S. 259, 285, 120 S.Ct. 746, 145 L.Ed.2d 756
(2000)).

1. The Kentucky Supreme Court Did Not Unreasonably
Apply Strickland’s Second Prong
At issue here is Strickland’s second prong—whether Pollini
was prejudiced by his appellate counsel's failure to raise the
trial court's Rule 9.74 violation. Generally speaking, Pollini

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix A, Pollini v. Robey, 981 F.3d 486 (6th Cir. 2020), pg. 4

4

Pollini v. Robey, 981 F.3d 486 (2020)

can demonstrate prejudice by showing that he would have
prevailed on appeal had his appellate counsel properly raised
the issue. Whether Pollini would have prevailed turns on
what standard of review the Kentucky Supreme Court was
required to apply to a Rule 9.74 violation: a “structural error”
or “fundamental fairness” standard. On that issue, the legal
landscape shifted during the course of Pollini's appeal. At the
time of his direct appeal, Rule 9.74 violations were subject to
a structural error standard, meaning Pollini likely would have
prevailed had his counsel raised the issue. But by the time
of his collateral attack, Rule 9.74 violations were reviewed
under a fundamental fairness standard, one more favorable to
the Commonwealth. The Kentucky Supreme Court held that
the latter standard applied in Pollini's case. As a result, Pollini
could not show prejudice from his appellate counsel's error.
In assessing Pollini's challenge, the “pivotal question is
whether the state court's application of the Strickland standard
was unreasonable,” which “is different from asking whether
[ ] counsel's performance fell below Strickland’s standard.”
Harrington, 562 U.S. at 101, 131 S.Ct. 770. Out of respect
for AEDPA's deference requirement, “even a strong case for
relief does not mean the state court's contrary conclusion
was unreasonable.” *494 Id. at 101–02, 131 S.Ct. 770.
In other words, even if we believe the Kentucky Supreme
Court applied Strickland incorrectly, that alone is insufficient
to grant Pollini relief, for “an unreasonable application of
federal law is different from an incorrect application of
federal law.” Id. at 101, 131 S.Ct. 770 (quoting Williams v.
Taylor, 529 U.S. 362, 410, 120 S.Ct. 1495, 146 L.Ed.2d 389
(2000)).
Measured against the controlling case law backdrop, the
Kentucky Supreme Court's decision to apply the fundamental
fairness standard was not “contrary to clearly established
Federal law.” Abby, 742 F.3d at 225–26 (alterations omitted)
(quoting 28 U.S.C. § 2254(d)). Under AEDPA, only holdings
of the Supreme Court constitute clearly established federal
law. Williams, 529 U.S. at 412, 120 S.Ct. 1495. And Pollini
does not point to (nor can we identify) any Supreme Court
holding directly prohibiting the Kentucky Supreme Court
from applying the current standard of review to his case.
Indeed, Supreme Court authority leans against Pollini's
argument. Instructive here is Lockhart v. Fretwell, 506 U.S.
364, 113 S.Ct. 838, 122 L.Ed.2d 180 (1993). In Lockhart,
the Supreme Court reviewed the Eighth Circuit's decision
granting a petitioner habeas relief on the ground of ineffective
assistance of appellate counsel. In reaching that conclusion,

the Eighth Circuit applied the law in effect at the time
of the petitioner's appeal rather than the law in effect at
the time of the petitioner's collateral attack. Doing so,
the Supreme Court explained, was error. In the Strickland
context, “[t]o set aside a conviction or sentence solely
because the outcome would have been different but for
counsel's error may grant the defendant a windfall to which
the law does not entitle him.” Lockhart, 506 U.S. at 369–
70, 113 S.Ct. 838 (citation omitted). Lockhart clarified that
Strickland is not solely outcome-based, but also incorporates
fairness notions. Strickland’s prejudice inquiry “focuses
on the question whether counsel's deficient performance
renders the result of the trial unreliable or the proceeding
fundamentally unfair. Unreliability or unfairness does not
result if the ineffectiveness of counsel does not deprive the
defendant of any substantive or procedural right to which
the law entitles him.” Id. at 372, 113 S.Ct. 838 (citations
omitted). A petitioner, in other words, should not benefit
from an invalid legal rule in effect at the time of his trial or
sentencing.
In many respects, today's outcome follows from Lockhart.
Pollini's argument is essentially this: he would have received
relief had the Kentucky Supreme Court applied the law at
the time of his direct appeal, not at the time of his collateral
attack. That is the same scenario addressed in Lockhart. And
to prevent “windfall[s]” to defendants, Lockhart applied the
law in effect at the time of the collateral attack. Id. at 370, 113
S.Ct. 838.
To be sure, Lockhart’s footprint is limited. In its aftermath,
the Supreme Court clarified that the basic Strickland inquiry
remains unchanged. See Lafler v. Cooper, 566 U.S. 156, 166,
132 S.Ct. 1376, 182 L.Ed.2d 398 (2012) (“The Court has
rejected the argument that [Lockhart] modified Strickland
before and does so again now.”). Lockhart’s reach thus seems
to be contained to scenarios where a petitioner's relief could
be categorized as unjust because of the abolition of a legal
right. See id. at 167, 132 S.Ct. 1376 (observing that Lockhart
demonstrates that “there are also situations in which it would
be unjust to characterize the likelihood of a different outcome
as legitimate ‘prejudice,’ because defendants would receive
a windfall as a result of the application of an incorrect
legal principle or a defense strategy outside *495 the
law.” (quoting Williams, 529 U.S. at 391, 120 S.Ct. 1495)).
But today's scenario falls well within Lockhart’s wheelhouse
—Pollini claims entitlement to a legal standard that Kentucky
no longer employs.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix A, Pollini v. Robey, 981 F.3d 486 (6th Cir. 2020), pg. 5

5

Pollini v. Robey, 981 F.3d 486 (2020)

Our prior decisions read Lockhart in the same manner.
Take, for example, Abby v. Howe, 742 F.3d 221 (6th Cir.
2014). In Abby, a convicted murderer had a legitimate Fifth
Amendment objection that his counsel did not raise at trial.
The Supreme Court later changed the law, rendering that
objection obsolete. Citing Lockhart, we determined that
no prejudice existed because “[a]ny objection by [counsel]
would be ‘wholly meritless under current governing law,
even if the objection might have been considered meritorious
at the time of its omission.’ ” Id. at 228 (emphasis added)
(quoting Lockhart, 506 U.S. at 374, 113 S.Ct. 838 (O'Connor,
J., concurring)). To the same effect is Evans v. Hudson, 575
F.3d 560, 566 (6th Cir. 2009). Again relying on Lockhart, we
held in Evans that a petitioner could not “show the necessary
prejudice for his claim of ineffective assistance of appellate
counsel based on the failure to raise a now-meritless claim,”
even if “the [petitioner]’s claim may have had merit at the time
of [petitioner's] appeal.” Id. (emphasis added). As these cases
confirm, when measured against the backdrop of Lockhart,
the Kentucky Supreme Court's application of the harmless
error standard was not unreasonable.
Pollini disagrees. Emphasizing Strickland’s command that, to
establish prejudice, a “defendant must show that there is a
reasonable probability that, but for counsel's unprofessional
errors, the result of the proceeding would have been
different,” Strickland, 466 U.S. at 694, 104 S.Ct. 2052, Pollini
contends that we must “decide whether there is a reasonable
probability that the claim would have prevailed at the time
counsel failed to raise it.” See McFarland v. Yukins, 356
F.3d 688, 699 (6th Cir. 2004) (emphasis added). But that
conclusion is in tension with Lockhart. To be sure, one
Justice in Lockhart agreed that Strickland required courts to
look to the law “at the time of trial or sentencing” when
examining prejudice. See Lockhart, 506 U.S. at 381–82, 113
S.Ct. 838 (Stevens, J., dissenting) (“By defining prejudice in
terms of the effect of counsel's errors on the outcome of the
proceedings, ... the Strickland Court establishes its point of
reference firmly at the time of trial or sentencing.”). But the
majority found this dissenting point unpersuasive.
True, in some instances we have applied the law in existence
at the time of the alleged ineffective assistance of counsel
to assess whether Strickland’s prejudice prong was satisfied.
See, e.g., Carter v. Timmerman-Cooper, 380 F. App'x 470,
474 (6th Cir. 2010) (finding no ineffective assistance of
appellate counsel because at the time of petitioner's appeal,
the law did not support his resentencing argument, making
it “unlikely that [petitioner] would have succeeded before

the Fifth District on November 23, 2004”); Benning v.
Warden, Lebanon Corr. Inst., 345 F. App'x 149, 158 (6th
Cir. 2009) (holding that petitioner was prejudiced by his
appellate counsel's failure to make an argument that the
law supported at the time of his appeal because “if counsel
had briefed the Blakely issue, [petitioner] would have been
entitled to a remand for resentencing”). Both decisions,
however, are non-binding unpublished opinions. And both, it
bears adding, were decided on de novo review, rather than
under the deferential AEDPA standard, because the respective
state courts had not assessed the merits of the petitioners’
ineffective assistance of counsel claims. Carter, moreover,
may have misconstrued the relevant legal standard. Carter
cited to Smith v. Murray, in which the *496 Supreme
Court directed lower courts to assess counsel's conduct at the
time of the alleged ineffectiveness. Carter, 380 F. App'x at
474 (citing Smith v. Murray, 477 U.S. 527, 536, 106 S.Ct.
2661, 91 L.Ed.2d 434 (1986)). But Smith was addressing the
deficiency prong of the Strickland analysis, not the prejudice
prong. Smith, 477 U.S. at 536, 106 S.Ct. 2661 (“Viewed
in light of Virginia law at the time, ... [counsel's conduct]
fell well within the wide range of professionally competent
assistance.” (cleaned up)).
Pollini notes one other difference between himself and
the petitioners in Lockhart, Abby, and Evans. While those
petitioners relied on a defunct legal right that no longer
existed (and could even be characterized as having never
validly existed), Pollini still maintained a valid legal claim to
be privy to jury communications. Only the standard of review
for violations of that right has changed (in a way, all agree,
that dramatically undercut Pollini's likelihood of success).
But it is unclear why this distinction matters. The underlying
logic of Lockhart was to prohibit defendants from receiving
“windfalls” through the use of old law. Lockhart, 506 U.S. at
370, 113 S.Ct. 838. And here, Pollini would be receiving a
benefit Kentucky law no longer provides. The upshot is thus
the same in both instances: Pollini would receive something
to which he is no longer entitled.
Pollini's two out-of-circuit habeas decisions, Shaw v. Wilson,
721 F.3d 908 (7th Cir. 2013), and Young v. Dretke, 356 F.3d
616 (5th Cir. 2004), do not make us think otherwise. Those
courts, we acknowledge, applied the law in effect at the time
of the trial and sentencing, not that in effect while the case was
on appeal. But those cases dealt with a change in statutory
law. In view of that distinction, those courts reasoned that
Lockhart was inapplicable because the repeal or amendment
of a statute does not render the prior statute invalid during

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix A, Pollini v. Robey, 981 F.3d 486 (6th Cir. 2020), pg. 6

6

Pollini v. Robey, 981 F.3d 486 (2020)

the period it was in effect. See, e.g., Shaw, 721 F.3d at 919
(“A legislative repeal of a statute does not present the same
situation as the one in which a court mistakenly recognizes
a right for some period of time and then corrects itself (or is
corrected by a reviewing court).”). And even setting aside this
distinctive feature, these decisions do not help Pollini clear
the AEDPA bar because they are not holdings of the Supreme
Court.
With all of this back and forth, perhaps the best one can say
is that it is not entirely clear whether the Kentucky Supreme
Court's decision to retroactively apply a new legal standard
to Pollini's Strickland claim was correct. We have disagreed
ourselves over whether to apply current law retroactively for
Strickland claims. Compare Carter, 380 F. App'x at 474 with
Abby, 742 F.3d at 228. Put another way, today's case arguably
is one where “fairminded jurists could disagree” over which
legal standard the Kentucky Supreme Court should have
applied. Harrington, 562 U.S. at 101, 131 S.Ct. 770 (quoting
Yarborough, 541 U.S. at 664, 124 S.Ct. 2140); see also id.
(quoting Williams, 529 U.S. at 410, 120 S.Ct. 1495) (“[A]n
unreasonable application of federal law is different from an
incorrect application of federal law.” (emphasis omitted)). In
that circumstance, however, AEDPA requires that we defer
to the Kentucky Supreme Court's resolution of the issue. We
thus honor that command.

2. The Kentucky Supreme Court's Decision Did Not Rest
On An Unreasonable Factual Determination
Pollini alternatively contends that the Kentucky Supreme
Court's Strickland determination “was based on an
unreasonable determination of the facts in light of the
evidence presented in the State *497 court proceeding.” 28
U.S.C. § 2254(d)(2). “To prove that a state court's factual
assessment was ‘unreasonable,’ a petitioner must show that
‘a reasonable factfinder must’ disagree with the state court's
assessment.” Woods v. Smith, 660 F. App'x 414, 424 (6th
Cir. 2016) (quoting Rice v. Collins, 546 U.S. 333, 341, 126
S.Ct. 969, 163 L.Ed.2d 824 (2006)). Meeting this standard
requires Pollini to do more than show an alternative way to
view the facts. Franklin v. Bradshaw, 695 F.3d 439, 447–
48 (6th Cir. 2012) (“[A] state-court factual determination is
not unreasonable merely because the federal habeas court
would have reached a different conclusion in the first
instance.” (quoting Wood v. Allen, 558 U.S. 290, 301, 130
S.Ct. 841, 175 L.Ed.2d 738 (2010))). Rather, he must show
“that the state court's presumptively correct factual findings

are rebutted by ‘clear and convincing evidence’ and do not
have support in the record.” Matthews v. Ishee, 486 F.3d 883,
889 (6th Cir. 2007).
With respect to the Kentucky Supreme Court's interpretation
of the facts, we start with the jury's request of the trial
judge. The jury wrote: “Does there exist a transcript of the
Plank conversation w/Police? Difficult to locate on tape, if
so, can we pls request?” Pollini argues that the trial judge
prejudiced him by not asking his counsel how to proceed,
as Plank's statement to police included evidence that Pollini
never intended to shoot Pruitt. In other words, Pollini wanted
the jury to have access to the tape, and because the jury might
not have had access to Plank's statement through the tape, he
was harmed by the trial judge not discussing the matter with
Pollini before telling the jury that no transcript was available.
The Kentucky Supreme Court saw things differently. It noted
that because the transcript was neither admitted into evidence
nor read aloud in court, the trial judge could not have provided
the jury with a copy of the transcript of Plank's statement.
Pollini, 437 S.W.3d at 152. Had it wanted to take some kind
of action in response to the jury's note, the trial judge had
only two options, the Kentucky Supreme Court explained:
allow Pollini to enter the transcript into evidence and read it
aloud in court, or bring the jury back into the courtroom to
have the relevant portions of the audiotape played again for
the jury. Id. Neither one seemingly was attractive. Because
Pollini had objected to entering the transcript into evidence
multiple times at trial, the Kentucky Supreme Court found
that Pollini was unlikely to suddenly change course during
jury deliberations. Id. It thus concluded there was no harm in
not reading the transcript aloud to the jury, a judgment that
we cannot say is unreasonable.
Nor was there harm in not replaying the audiotape in open
court. As the Kentucky Supreme Court observed, the jury
“was provided with an audiotape of Plank's statement, which
it was allowed to listen to at will in the jury room.” Id.
Implicit in this finding is the notion that the jury had the
correct tape and that the tape was working. Pollini, 2019 WL
236721, at *4–5, 2019 U.S. Dist. LEXIS 7459, at *11–12.
That conclusion too was not an unreasonable determination
of the facts. The jury noted that a portion of Plank's statement
was “difficult to locate” or comprehend, a clear indication
that the jury had a working version of the audiotape. Id.
And any contention that the jury might have had the wrong
tape is pure conjecture. Id. Because the tape was played
previously in open court, the jurors would have indicated to

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix A, Pollini v. Robey, 981 F.3d 486 (6th Cir. 2020), pg. 7

7

Pollini v. Robey, 981 F.3d 486 (2020)

the judge if the wrong tape was in the jury room. Id. We
thus cannot say that “ ‘a reasonable factfinder must’ disagree
with the state court's assessment.” Woods, 660 F. App'x at
424 (quoting Rice, 546 U.S. at 341, 126 S.Ct. 969). Nor, for
these same *498 reasons, do we agree with Pollini that the
Kentucky Supreme Court's factual determination resulted in
an unreasonable application of Strickland.
B. Pollini Did Not Procedurally Default His Ineffective
Assistance Of Appellate Counsel Claim Regarding
Counsel's Failure To Request A New Trial.
We next turn to Pollini's claim that his appellate counsel was
ineffective for seeking only a new sentence, and not a new
trial, as a remedy for the jury's erroneous conclusion that
Pollini was still in the process of committing burglary when
he shot Pruitt. Pollini acknowledges that he did not raise
the argument during the collateral state court proceedings.
But, he says, that was because Kentucky did not recognize
most types of ineffective assistance of appellate counsel
claims at the time of his state court collateral attack, meaning
the district court was wrong to find that the argument was
procedurally defaulted. Pollini, 2019 WL 236721, at *5, 2019
U.S. Dist. LEXIS 7459, at *13–14. In overruling its prior
decision disallowing certain types of ineffective assistance
of appellate counsel claims, the Kentucky Supreme Court in
Hollon declared its ruling “to have prospective effect only.”
Hollon, 334 S.W.3d at 439 (overruling Hicks, 825 S.W.2d at
281). Because Pollini's just-discussed ineffective assistance
of counsel claim involving the alleged violation of Rule 9.74
was read broadly by the Kentucky courts to include both trial
and appellate counsel, and was thus already pending on appeal
when Hollon was decided, the Kentucky Supreme Court was
able to grant discretionary review to hear that claim. But
because Pollini did not raise his ineffective assistance of
appellate counsel argument regarding the failure to seek a
new trial, he was not able to retroactively assert that claim
post-Hollon.
A “habeas petitioner procedurally defaults a claim if: (1) the
petitioner fails to comply with a state procedural rule; (2) the
state courts enforce the rule; (3) the state procedural rule is
an adequate and independent state ground for denying review
of a federal constitutional claim; and (4) the petitioner cannot
show cause and prejudice excusing the default.” Wogenstahl
v. Mitchell, 668 F.3d 307, 321 (6th Cir. 2012) (quoting
Guilmette v. Howes, 624 F.3d 286, 290 (6th Cir. 2010) (en
banc)). With roots in notions of federalism and comity, the
procedural default doctrine is premised on the idea that state
courts should have the first pass at remedying any violation

of a state prisoner's federal constitutional rights. Coleman
v. Thompson, 501 U.S. 722, 730–31, 111 S.Ct. 2546, 115
L.Ed.2d 640 (1991) (internal citations omitted). A state court
is deprived of this opportunity, however, when a petitioner
violates a state rule of procedure that prevents the state from
hearing his claim. For example, in Coleman, the Supreme
Court held that a petitioner who filed his appellate brief
three days late had effectively deprived the state of a fair
opportunity to pass on his claims, and thus had procedurally
defaulted them, because the state had consistently and strictly
applied its timing deadlines for filing such appellate briefs.
Id. at 742–44, 111 S.Ct. 2546. So long as the state procedural
rule is one that is an independent and adequate ground for
refusing to fully consider the petitioner's argument, the federal
courts likewise will not hear the petitioner's claim. Williams
v. Anderson, 460 F.3d 789, 806 (6th Cir. 2006).
Pollini, however, did not fail to comply with state procedural
rules. He acknowledges that he did not argue in state court
that his appellate counsel was constitutionally ineffective
in failing to seek a new trial *499 rather than solely a
resentencing. But nor could he have made that claim under
Kentucky law. After all, the Kentucky Supreme Court, at
the time Pollini filed for state collateral review, refused to
recognize the argument. See Harper v. Commonwealth, 978
S.W.2d 311, 318 (Ky. 1998) (“RCr 11.42 cannot be used as
a vehicle for relief from ineffective assistance of appellate
counsel.” (citation omitted)); Boykin, 541 F.3d at 647–48
(noting that “the district court was correct in addressing
the merits of [petitioner]’s claim of ineffective appellate
counsel even though the Kentucky Supreme Court refuses to
recognize such a claim”). In view of that state law limitation,
Pollini did not procedurally default his ineffective assistance
of appellate counsel claim by failing to raise the claim in
state court. See Matthews v. Parker, 651 F.3d 489, 499
(6th Cir. 2011) (“Furthermore, according to Kentucky law,
Petitioner could not have raised this claim in his state postconviction motion. ... Petitioner's habeas petition was his first
opportunity to raise his ineffective assistance of appellate
counsel claim, and he did not procedurally default this claim
by not previously raising it.”), rev'd on other grounds, 567
U.S. 37, 132 S.Ct. 2148, 183 L.Ed.2d 32 (2012).
Comity and federalism concerns do not suggest otherwise.
Our “duty to protect a state's interest in its procedural rules is
only applicable once we determine that the state has decided
a given case on a procedural basis.” Guilmette, 624 F.3d
at 292. Here, Kentucky had not made such a procedural
determination when Pollini sought collateral review. By not

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix A, Pollini v. Robey, 981 F.3d 486 (6th Cir. 2020), pg. 8

8

Pollini v. Robey, 981 F.3d 486 (2020)

allowing appellants to bring certain types of ineffective
assistance of counsel claims, Kentucky voluntarily forwent
the opportunity to have a first pass at remedying violations
of a state prisoner's federal rights. See Coleman, 501 U.S. at
730, 111 S.Ct. 2546. Respecting those rights today thus does
no disrespect to decisions of a coordinate state court.

default his ineffective assistance of appellate counsel claims
when binding state precedent barred him from doing so on
direct appeal. The same is true here. Because Pollini did not
procedurally default this ineffective assistance of appellate
counsel claim, he may proceed on that claim on remand.

Concluding otherwise, it bears noting, seemingly would
deprive Pollini of the opportunity to vindicate his alleged
injuries. See Halvorsen v. White, 746 F. App'x 489, 494
(6th Cir. 2018) (“Because we have previously permitted
district courts to review the merits of [Kentucky ineffective
assistance of appellate counsel claims] to ensure that a
recognized federal right is not rendered non-cognizable,
we accept [defendant's] invitation to address it here ....”)
(citation omitted)). With that consideration in mind, we held
in Matthews and Halvorsen that a Kentucky prisoner does not

III.

End of Document

For the foregoing reasons, the judgment of the district court
is affirmed in part, vacated in part, and remanded for further
proceedings.
All Citations
981 F.3d 486

© 2021 Thomson Reuters. No claim to original U.S.
Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix A, Pollini v. Robey, 981 F.3d 486 (6th Cir. 2020), pg. 9

9

Pollini v. Litteral, Not Reported in Fed. Supp. (2019)
2019 WL 236721

2019 WL 236721
Only the Westlaw citation is currently available.
United States District Court, W.D. Kentucky,
Louisville Division.

Jasper POLLINI, Petitioner,
v.
Kathy LITTERAL, Respondent.
Civil Action No. 3:14-cv-689-DJH-RSE
|
Signed 01/15/2019
Attorneys and Law Firms
Timothy G. Arnold, Kentucky Department of Public
Advocacy, Frankfort, KY, for Petitioner.
Jeffrey A. Cross, Kentucky Attorney General-Office of
Criminal Appeals, Frankfort, KY, for Respondent.

MEMORANDUM OPINION AND ORDER
David J. Hale, Judge
*1 This matter is before the Court on a petition for a writ of
habeas corpus pursuant to 28 U.S.C. § 2254. (Docket No. 1) In
accordance with 28 U.S.C. § 636(b)(1)(B), the Court referred
the matter to United States Magistrate Judge Dave Whalin for
initial review and recommended disposition. (D.N. 25) In his
Findings of Fact, Conclusions of Law and Recommendation
(D.N. 39), Judge Whalin recommended that Pollini's petition
be granted on the first asserted ground for relief; Judge
Whalin did not evaluate Pollini's other claims. (Id., PageID
# 57) For the reasons discussed below, the Court declines
to adopt the magistrate judge's recommendation and is not
persuaded by Pollini's remaining arguments. The Court will
therefore deny Pollini's petition.
I. BACKGROUND
In 2002, Dan Ziegler awoke to find Jasper Pollini burglarizing
his garage. Commonwealth v. Pollini, 172 S.W.3d 418, 421
(Ky. 2005). After chasing Pollini from his property, Ziegler
notified his neighbor, Byron Pruitt, who armed himself and
began searching the area. Id. Meanwhile, Pollini realized that
he forgot his toolbox at Ziegler's home and persuaded his
sister, Crystal Plank, to drive him back to the scene. Id. Upon

their arrival, Plank and Pollini saw a flashlight coming toward
their vehicle, prompting Pollini to fire his gun out the window.
Id. The bullet pierced Pruitt's throat, and he died shortly
thereafter. Id. at 422.

A.
Following trial in 2003, a Jefferson Circuit Court jury
convicted Pollini of murder, burglary in the first degree,
burglary in the second degree, and receiving stolen property
(D.N. 20, PageID # 121). The trial judge sentenced Pollini
to life without the possibility of parole for 25 years. (D.N.
39, PageID # 1559) Thereafter, the case proceeded down a
lengthy path of appeals.
On direct appeal in 2005, the Kentucky Supreme Court upheld
Pollini's conviction but vacated the case for a new sentencing
hearing; the Jefferson Circuit Court subsequently reduced his
sentence to life. The court found that Pollini was not eligible
for aggravated sentencing because he did not shoot Pruitt
during or in immediate flight from the burglary. (Id.) After
resentencing in 2006, Pollini appealed, but the Kentucky
Supreme Court dismissed the appeal finding that the trial
court did not abuse its discretion in admitting videotape
testimony of Ziegler's mother and that the prosecutor's
closing argument was not improper. (D.N. 20, PageID # 124)
Pollini v. Commonwealth, No. 2006-SC-000835-MR, 2008
WL 203035 (Ky. Jan. 24, 2008). Next, Pollini filed a postconviction action in state court, which the trial court and the
Kentucky Court of Appeals dismissed. (Id.)
In 2011, the Kentucky Supreme Court remanded the case to
the Kentucky Court of Appeals in light of its ruling in Hollon
v. Commonwealth, 334 S.W.3d 431, 436 (Ky. 2010), where the
court agreed to recognize ineffective-assistance-of-counsel
claims based on alleged deficiencies during direct appeal.
On remand, the Kentucky Court of Appeals vacated Pollini's
conviction based on the trial judge's violation of Kentucky
Rule of Criminal Procedure 9.74, which prohibits a judge
from responding to jury requests for information outside the
presence of counsel. Pollini v. Commonwealth, No. 2009CA-000964-MR, 2011 WL 6412052 (Ky. Ct. App. 2011).
The Kentucky Supreme Court then reversed, finding the
Rule 9.74 violation harmless error. Commonwealth v. Pollini,
437 S.W.3d 144, 153 (Ky. 2014). Accordingly, in 2014, the
Kentucky Supreme Court reinstated Pollini's conviction and
sentence. Id.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

Appendix B: Pollini v. Litteral, 3:14-CV-689-DJH-RSE, 2019 WL 236721 (W.D. Ky. Jan. 15, 2019), pg. 1

Pollini v. Litteral, Not Reported in Fed. Supp. (2019)
2019 WL 236721

B.
*2 In his habeas petition, Pollini asserts six grounds for
relief. (D.N. 20, PageID # 112-14) The magistrate judge
recommended that Pollini be given a new direct appeal
relating to Ground One of his petition and did not offer
a recommendation with respect to any of the other five
grounds. (D.N. 44, PageID # 1612) The warden objected
to the magistrate judge's recommendation. (D.N. 40) This
opinion will therefore address all six grounds of Pollini's
petition.
II. STANDARD
The Court reviews de novo the portions of the magistrate
judge's report to which objection is made. 28 U.S.C. § 636(b)
(1). Under the Antiterrorism and Effective Death Penalty Act
of 1996,
[a]n application for a writ of habeas corpus on behalf of
a person in custody pursuant to the judgment of a State
court shall not be granted with respect to any claim that was
adjudicated on the merits in State court proceedings unless
the adjudication of the claim—
(1) resulted in a decision that was contrary to, or involved
an unreasonable application of, clearly established
Federal law, as determined by the Supreme Court of the
United States; or
(2) resulted in a decision that was based on an
unreasonable determination of the facts in light of the
evidence presented in the State court proceeding.
28 U.S.C. § 2254(d). The “contrary to” clause applies “if the
state court arrives at a conclusion opposite to that reached
by [the Supreme] Court on a question of law or if the
state decides a case differently than [the Supreme] Court
has on a set of materially indistinguishable facts.” Williams
v. Taylor, 529 U.S. 362, 412-13 (2000). An “unreasonable
application” occurs where “the state court identifies the
correct governing legal principle from [the Supreme] Court's
decisions but unreasonably applies that principle to the facts
of the prisoner's case.” Id. at 413. If the state court's decision
conflicts with clear and convincing evidence to the contrary,
there has been an “unreasonable determination of the facts.”
Wiggins v. Smith, 539 U.S. 510, 528-29 (2003). Under this
clause, the petitioner must show that the state court “applied [a
Supreme Court case] to the facts of his case in an objectively
unreasonable manner.” Woodford v. Visciotti, 537 U.S. 19, 25

(2002). There must be no possibility that fair-minded jurists
could disagree that the state court's decision conflicts with
Supreme Court precedent. Harrington v. Richter, 562 U.S. 86,
102 (2011).
III. DISCUSSION
A. Ground One
In Ground One of his amended petition, Pollini argues that the
Kentucky Supreme Court unreasonably applied Strickland
v. Washington, 466 U.S. 668 (1984), when reviewing his
appellate counsel's failure to brief a Kentucky Rule of
Criminal Procedure 9.74 violation because the court looked
to current governing law, rather than the law that governed at
the time of the alleged deficiency. (D.N. 20, PageID # 158)
Had his appellate counsel raised the Rule 9.74 issue on appeal,
Pollini contends, a structural-error standard would have
applied, and his conviction would have been automatically
reversed. (Id.) But as explained below, this Court agrees with
the Kentucky Supreme Court's analysis.
To succeed on a claim of ineffective assistance of counsel
under Strickland, a petitioner must establish that his counsel's
conduct was deficient in light of professional norms and
that the deficient performance prejudiced his defense. 466
U.S. at 686, 694. To satisfy the prejudice requirement, the
petitioner must show with reasonable probability that but for
his counsel's errors, the result would have been different. Id.
at 694. A reasonable probability is a probability sufficient
to undermine the court's confidence in the outcome of the
proceedings. Id.
*3 In determining whether prejudice has occurred, the
reviewing court should apply current governing law rather
than the law in place at the time of the alleged deficiency.
Lockhart v. Fretwell, 506 U.S. 364, 372 (1993). As the Sixth
Circuit has explained, counsel's failure to make an objection
that would be meritless under current governing law cannot
support an ineffective-assistance-of-counsel claim, even if the
objection would have been meritorious if raised at the time of
the deficiency. Berry v. Capello, 576 F. App'x 579, 589 (6th
Cir. 2014); see also Abby v. Howe, 742 F.3d 221, 228 (6th Cir.
2014). In Berry, the defendant argued that his conviction for
both felony murder and the underlying offense violated the
Double Jeopardy Clause, as held by the Michigan Supreme
Court in People v. Wilder, 411 Mich. 328 (Mich. 1981). See
id. While Berry's appeal was pending, however, the Michigan
Supreme Court overruled Wilder. Id. The Sixth Circuit held
that because Berry could not assert a double jeopardy claim

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

Appendix B: Pollini v. Litteral, 3:14-CV-689-DJH-RSE, 2019 WL 236721 (W.D. Ky. Jan. 15, 2019), pg. 2

Pollini v. Litteral, Not Reported in Fed. Supp. (2019)
2019 WL 236721

under then-current Michigan law, it could not consider his
attorney's failure to object in determining Berry's ineffectiveassistance-of-counsel claim. Id.
Likewise, in Abby, the defendant's attorney did not object to
the government's use of Abby's pre-arrest silence as evidence
of guilt, in violation of Combs v. Coyle, 205F.3d 269 (6th Cir.
2000). See Abby, 742 F.3d at 228. Before the Sixth Circuit
heard Abby's appeal, though, the Supreme Court overruled
Combs and held that prosecutors could use pre-arrest silence
as evidence of guilt. Id. Accordingly, the Sixth Circuit held
that it could not consider counsel's failure to object because it
would be futile under then-current law. Id.
Here, the alleged deficiency is appellate counsel's failure to
brief the trial judge's violation of Rule 9.74 which prohibits
contact between the jury and judge after deliberations have
begun, other than in the presence of counsel and parties. (D.N.
39, PageID # 1560) While deliberating, the jury sent a note
to the trial judge asking if a transcript of Plank's testimony
was available because they were having trouble locating her
statement on the provided tape. Commonwealth v. Pollini, 437
S.W.3d at 159. Because the transcript was previously ruled
inadmissible, the judge unilaterally replied in writing that no
transcript was available. Id. It is undisputed that this exchange
violated Rule 9.74. Id.
The parties disagree, however, as to whether the failure
to raise this violation on appeal prejudiced Pollini. The
Kentucky Supreme Court commenced its analysis by
evaluating whether appellate counsel's failure to brief
the Rule 9.74 violation prejudiced Pollini because, under
Strickland, if it is “easier to dispose of an ineffectiveness
claim on the ground of lack of sufficient prejudice, ... that
course should be followed.” Pollini, 437 S.W.3d at 149 (citing
Strickland, 466 U.S. at 697). Although it was obvious to
the court that the trial judge violated Rule 9.74, that alone
was insufficient to show prejudice. Id. at 151. The Kentucky
Supreme Court explained that the “harmless error analysis is
[the] current standard of review for a trial judge's violation
of [Rule] 9.74.” Id. A Rule 9.74 violation is harmless if
the contact “does not impugn the fundamental fairness of
an otherwise constitutionally acceptable trial.” Id. (citing
McAtee v. Commonwealth, 413 S.W.3d 608, 626 (Ky. 2013)
). If the error was in fact harmful, there would have been
a reasonable probability of Pollini's success on appeal and,
accordingly, the Strickland prejudice test would be satisfied.
Id.

The Kentucky Supreme Court concluded, however, that
informing the jury that there was no transcript was harmless
because the trial judge previously ruled the transcript
inadmissible. Id. at 151-52. Additionally, Pollini's counsel
objected to admission of the transcript throughout the trial.
Id. Thus, Pollini and his counsel's absence from the exchange
was also harmless—had they been present, their only options
would have been to “agree to enter the transcript into evidence
and have it read in open court or to have the jury come back
into open court and listen to selected portions of Plank's taped
witness statement [even though the trial] had closed [and]
the jury was in its deliberations.” Id. at 152. The Kentucky
Supreme Court concluded that Pollini was not prejudiced
by his counsel's conduct and thus was not entitled to relief
because Pollini did not demonstrate how the contact between
the trial judge and jury “impugned the fundamental fairness”
of the trial. Id.
*4 This Court likewise finds that Pollini is not entitled
to relief because the Kentucky Supreme Court did not
unreasonably apply Strickland. The Kentucky Supreme Court
identified the correct standard for ineffective-assistance-ofcounsel claims and applied it to Pollini's case based on
the law in effect at the time of review.1 Id. at 149-52; see
also Strickland, 466 U.S. at 694; Lockhart, 506 U.S. at
372. Although Pollini maintains that his conviction would
have been reversed if his counsel had objected at the time
of his direct appeal, ineffective-assistance-of-counsel claims
that are meritless under current law are not sufficient to
show prejudice under Strickland, as discussed above. Berry,
576 F. App'x at 589. Therefore, Pollini has not shown how
the Kentucky Supreme Court's application of Strickland is
unreasonable.
The magistrate judge also recommended that the Court
grant Pollini relief on the ground that the Kentucky
Supreme Court's decision was an objectively unreasonable
determination of the facts in light of the evidence presented
at Pollini's trial. (D.N. 39, PageID # 1613) See 28 U.S.C. §
2254(d)(2). Specifically, the report finds that the state court's
conclusion regarding prejudice rests on erroneous findings
that 1) the tape contained Plank's statement and 2) the tape
was operable. (D.N. 39, PageID # 1613) After careful review
of the record, the Court concludes that the magistrate judge's
recommendation is incorrect because the Kentucky Supreme
Court's findings were objectively reasonable.
First, the jury's note to the trial judge stated that Plank's
statement was “[d]ifficult to locate on the tape,” which

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

Appendix B: Pollini v. Litteral, 3:14-CV-689-DJH-RSE, 2019 WL 236721 (W.D. Ky. Jan. 15, 2019), pg. 3

Pollini v. Litteral, Not Reported in Fed. Supp. (2019)
2019 WL 236721

implies that the tape was operable—there otherwise would
not have been “difficult[y]” locating the statement within the
tape. Pollini, 437 S.W.3d at 147. Second, the record reflects
that Plank's statement was played on tape in open court; this
means that a tape containing Plank's statement existed and
that the jury was familiar with its contents. (D.N. 44, PageID
# 1640) It is not objectively unreasonable, then, to conclude
that the jury would likely have known if it had the wrong tape,
and that, from the context of the note, the jury thought it had
the right tape. See Matthews v. Ishee, 486 F.3d 883, 889 (6th
Cir. 2007).
In sum, the Kentucky Supreme Court's conclusions that the
jury had an operable tape containing Plank's statement and,
consequently, that the Rule 9.74 violation was harmless,
are not objectively unreasonable. As there is no “clear and
convincing” evidence to the contrary, the Court finds that
the state court's determination of the facts was reasonable.
See Wiggins, 539 U.S. at 528-29. Likewise, and as stated
above, the state court did not inappropriately apply Strickland
to Pollini's claim. Accordingly, Ground One of Pollini's
amended petition will be denied.
B. Grounds Two and Three
Pollini next contends that his Sixth and Fourteenth
Amendment rights were violated because the jury was
laboring under the theory that he was still in immediate flight
from the robbery when he shot Pruitt (D.N. 20, PageID # 171)
and that his appellate counsel was ineffective under Strickland
for failing to argue that Pollini's conviction, rather than his
sentence, should be overturned. (Id., PageID # 176) However,
as Pollini concedes, both claims are procedurally defaulted
because he did not raise them before the state court. (D.N. 20,
PageID # 170-171, 176) Coleman v. Thompson, 501 U.S. 722,
748 (1991). Nevertheless, Pollini argues that the Court should
review his claims because there was no process available to
review them in state court. (D.N. 20, PageID # 171, 176)
*5 A procedurally defaulted claim only warrants review
where the petitioner shows cause and actual prejudice. Reed
v. Farley, 512 U.S. 339, 353-55 (1994). To establish cause,
a petitioner must point to an external obstacle that prevented
him from presenting the claim in state court. Coleman, 501
U.S. at 753. Cause will not be found, though, where a
petitioner did not present a claim before the state court simply
because he believed doing so would be futile. Engle v. Isaac,
456 U.S. 107, 130 (1982); see also Cvijetniovic v. Eberlin,
617 F.3d 833, 839 (6th Cir. 2010). Even a state court that
has previously rejected a constitutional argument may decide,

upon reflection, that the contention is valid. Engle, 456 U.S.
at 130.
Here, Pollini argues that he did not present Grounds Two
and Three in his post-conviction petition and initial appeal
because “there was no state process” available given that
Kentucky courts did not recognize ineffective-assistance-ofappellate-counsel claims based on alleged deficiencies on
direct appeal until 2010. (D.N. 20, PageID # 171, 176) Hollon,
334 S.W.3d at 433. In other words, Pollini contends that
raising the issue before the state court would have been
futile. (D.N. 20, PageID # 151) Yet while Pollini's appeal
was pending, this issue was presented in Hollon, and the
Kentucky Supreme Court decided to recognize such claims.
See Hollon, 334 S.W.3d at 433. Thus, Pollini presents the
exact scenario warned against in Engle: failing to present
seemingly futile arguments deprives state courts of the
opportunity to reevaluate, and potentially overrule, prior
decisions. 456 U.S. at 130. Accordingly, Pollini has not shown
cause for his procedural defaults, and Grounds Two and Three
of his petition will be denied.
C. Ground Four
In Ground Four of his amended petition, Pollini maintains
that the Kentucky Supreme Court inappropriately applied
Jackson v. Virginia, 443 U.S. 307 (1979), when assessing
the sufficiency of the evidence with respect to his conviction
for burglary in the first degree. (D.N. 20, PageID # 177)
Under Jackson, evidence is sufficient if, viewed in the light
most favorable to the prosecution, any rational trier of fact
could have found the essential elements of the crime beyond a
reasonable doubt. Id. at 319. On habeas review, a federal court
may only overturn a state-court determination on sufficiency
of the evidence if the state-court decision was objectively
unreasonable. Coleman, 566 U.S. at 652.
Pollini challenges the sufficiency of the evidence regarding
only one element of burglary in the first degree: that he
was armed with a deadly weapon while entering, within,
or in immediate flight from Ziegler's garage. (D.N. 20,
PageID # 177) Although the Kentucky Supreme Court
assessed Pollini's claim under the standard articulated in
Commonwealth v. Benham, 816 S.W.2d 186, 187 (Ky. 1991),
the Sixth Circuit has acknowledged that this standard is
materially the same as Jackson. See Matthews v. Parker,
651 F.3d 489, 503 n.3 (6th Cir. 2011); see also Jackson,
443 U.S. at 319. Additionally, the state court's description of
the Benham test is consistent with the holding in Jackson:
the court stated that it “must consider all evidence favoring

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

Appendix B: Pollini v. Litteral, 3:14-CV-689-DJH-RSE, 2019 WL 236721 (W.D. Ky. Jan. 15, 2019), pg. 4

Pollini v. Litteral, Not Reported in Fed. Supp. (2019)
2019 WL 236721

the [prosecution] as true and from that evidence, determine
whether it is sufficient to induce a reasonable jury to believe
beyond a reasonable doubt that the defendant is guilty of
each and every element of the crime.” Pollini, 172 S.W.3d
at 429; cf. Jackson, 443 U.S. at 319 (explaining that “the
relevant question is whether, after viewing the evidence in
the light most favorable to the prosecution, any rational trier
of fact could have found the essential elements of the crime
beyond a reasonable doubt.”). The Kentucky Supreme Court
then identified the evidence indicating Pollini's possession of
a deadly weapon: Ziegler's testimony that he thought Pollini
had a weapon and Pollini's possession of a gun when he
returned to Ziegler's neighborhood minutes later. Pollini, 172
S.W.3d at 422, 429. When viewed in the light most favorable
to the prosecution, the court concluded, a rational jury could
have found that Pollini had a gun during the burglary. Id. at
432.
*6 Pollini contends that because Ziegler could not confirm
what Pollini was carrying and because Pollini did not fire at
Ziegler, the jury's conclusion and state court's finding were
illogical. (D.N. 20, PageID # 179) However, the presence of
competing evidence does not make the jury's verdict irrational
or the state court's review objectively unreasonable; rather, “a
federal habeas corpus court faced with a record of historical
facts that supports conflicting inferences must presume—
even if it does not affirmatively appear in the record—that
the trier of fact resolved any such conflicts in favor of the
prosecution, and must defer to that resolution.” Jackson, 443
U.S. at 326.
In light of the evidence, this Court cannot conclude that the
state court was objectively unreasonable in finding that such
evidence was sufficient to convince a reasonable jury that
Pollini was armed during the burglary. Pollini, 172 S.W.3d at
432. This Court therefore finds that the Kentucky Supreme
Court correctly applied Jackson. Accordingly, the Court will
deny Ground Four of Pollini's petition.
D. Ground Five
In Ground Five of his amended petition, Pollini maintains
that the jury instructions on murder violated his Sixth and
Fourteenth Amendment rights. (D.N. 20, PageID # 179) The
Court need not review the merits of this claim, however,
because it is procedurally defaulted.
To receive federal habeas corpus relief, a petitioner must
first exhaust all available state-court remedies, meaning that
each claim must have been “fairly presented” to the state

court. Frazier v. Huffman, 343 F.3d 780, 797 (6th Cir. 2003).
“Fair presentation requires that the state courts be given the
opportunity to see both the factual and legal basis for each
claim.” Wagner v. Smith, 581 F.3d 410, 414–15 (6th Cir.
2009). “[T]he applicant is required to make a specific showing
of the alleged claim.” Id. at 415.
Pollini's state-court presentation of Ground Five is strikingly
similar to the petitioner's prosecutorial-misconduct argument
in Wagner. In Wagner, the petitioner argued that he
sufficiently presented his claim to the state court because he
described the claim in a heading2 and included conclusory
statements regarding the prosecutor's conduct within his
brief.3 Wagner, 581 F.3d at 416. The Sixth Circuit found
these passing references too vague to be considered a fair
presentation because they did not establish the factual or legal
basis for Wagner's constitutional claim. Id. at 415. Similarly,
Pollini only described his federal murder-instructions claim
in one heading4 of his state-court brief and summarily stated
three times throughout the brief that the murder instructions
violated his federal constitutional rights.5 (D.N. 28-3, PageID
# 487, 490-91) Although Pollini also cited two federal cases
and the Sixth and Fourteenth Amendments, citations, without
more, do not fairly present the claim. Katt v. Lafler, 271
F. App'x 479, 480-82 (6th Cir. 2008). Because Pollini did
not fairly present his murder-instructions argument before
the state court, he has not exhausted all state remedies with
respect to this claim. Thus, the Court will deny Ground Five
of Pollini's petition.
E. Ground Six
*7 Last, Pollini contends that his appellate counsel was
ineffective because he pursued a self-defense theory rather
than an unintentional-shooting argument. (D.N. 20, PageID #
182) As the Warden notes, however, this claim is time-barred
because it does not relate back to Pollini's original petition.
(D.N. 28, PageID # 254)
After he exhausted his state remedies, Pollini had a one-year
period to file his habeas corpus petition. 28 U.S.C. § 2244(d)
(1). Pollini timely filed his original petition but amended it
after the one-year period lapsed. (D.N. 28, PageID # 252)
Amendments made after the statute of limitations has run
relate back to the original petition only if they arise out of the
same “conduct, transaction, or occurrence.” Fed. R. Civ. P.
15. Amendments that fall outside the limitations period but do
not relate back are time-barred. Johnson v. Sheets, No. 2:07CV-490, 2008 WL 926582, at *4 (S.D. Ohio Apr. 3, 2008).

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

Appendix B: Pollini v. Litteral, 3:14-CV-689-DJH-RSE, 2019 WL 236721 (W.D. Ky. Jan. 15, 2019), pg. 5

Pollini v. Litteral, Not Reported in Fed. Supp. (2019)
2019 WL 236721

The Supreme Court clarified the meaning of “conduct,
transaction, or occurrence” in the habeas corpus context in
Mayle v. Felix, 545 U.S. 644, 663-64 (2005). In Mayle,
Defendant Jacoby Felix filed a habeas petition objecting to the
trial court's admission of a videotaped interrogation of Felix's
friend. Id. at 651. After the statute of limitations lapsed,
Felix filed an amended petition adding an objection to the
admission of pre-trial statements he made to police during
interrogation. Id. The Mayle Court explained that habeas
claims relate back to the original petition only when they are
tied to a “common core of operative facts,” because Rule
15(c)(2) is meant to relax rather than obliterate the statute
of limitations. Id. at 663-64, 659. Thus, an amended habeas
petition does not relate back where it asserts new grounds
for relief supported by facts that differ from those in the
original petition. Pinchon v. Myers, 615 F.3d 631, 642-43
(6th Cir. 2010) (finding that petitioner's claim did not relate
back because the initial claim relied on jury instructions and
the sufficiency of the evidence presented at trial, but his
amended claim depended on his attorney's failure to present
evidence of mental impairment). Additionally, a new claim
of ineffective assistance of counsel does not automatically
relate back merely because it and an original claim both rest
on violations of the Sixth Amendment. Woolbright v. Crews,
No. 1:12-CV-00080-GNS, 2017 WL 6887002, at *10 (W.D.
Ky. July 24, 2017); see also U.S. v. Gonzalez, 592 F.3d 675,
680 (5th Cir. 2009); U.S. v. Hernandez, 436 F.3d 851, 858 (8th
Cir. 2006).
Here, Pollini's new claim regarding his counsel's failure to
present a theory of unintentional shooting and his previous
ineffective-assistance-of-counsel claim do not rest on the
same core facts. Originally, Pollini argued that his counsel
was deficient on the ground that he did not do enough to
present a sound self-defense theory. (D.N. 1, PageID # 18-23)
Then, Pollini maintained that his lawyer should have had
Pruitt's gun tested for gunpowder residue and should have
presented evidence that Pruitt threatened to shoot Pollini
and fired his gun. (Id.) Now, in his latest argument, Pollini
contends that the deficiency was counsel's failure to present
a theory of accidental shooting and that it was unreasonable
to pursue a self-defense argument; the pertinent facts are
counsel's failure to present expert testimony regarding the
bullet trajectory, expert testimony regarding Pollini's mental
health, and evidence concerning Pollini's inability to perceive

the risk involved with firing his gun. (D.N. 20, PageID #
186-92) In sum, Pollini previously relied on facts showing
what his trial counsel should have done to present a selfdefense argument. He now relies on facts suggesting an
unintentional shooting and makes no mention of the evidence
previously discussed. (D.N. 20, PageID # 75-81) Thus, the
“core facts” of the two claims are not the same. See Pinchon,
615 F.3d at 642-44. Ground Six of Pollini's amended petition
therefore does not relate back and is time-barred.
IV. CONCLUSION
*8 Pollini has not shown that the state-court decisions
were contrary to or involved an unreasonable application of
clearly established federal law, or that they were based on
an unreasonable determination of the facts in light of the
evidence presented. Notwithstanding the magistrate judge's
recommendation, the Court finds that Pollini has not made
a “substantial showing of the denial of a constitutional
right” because reasonable jurists could not debate the Court's
assessment of Pollini's constitutional claims. 28 U.S.C. §
2253(c)(2); see Slack v. McDaniel, 529 U.S. 473, 483
(2000); Cooey v. Coyle, 289 F.3d 882, 887 (6th Cir. 2002).
Consequently, no certificate of appealability shall issue.
Accordingly, and the Court being otherwise sufficiently
advised, it is hereby
ORDERED as follows:
(1) The Court DECLINES to adopt the Findings of Fact,
Conclusions of Law and Recommendation of Magistrate
Judge Dave Whalin (D.N. 39).
(2) The warden's objection to the Findings of Fact,
Conclusions of Law and Recommendation (D.N. 44) is
SUSTAINED.
(3) Pollini's amended petition for habeas relief (D.N. 20) is
DENIED.
(4) A separate Judgment shall issue this date.
All Citations
Not Reported in Fed. Supp., 2019 WL 236721

Footnotes

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

Appendix B: Pollini v. Litteral, 3:14-CV-689-DJH-RSE, 2019 WL 236721 (W.D. Ky. Jan. 15, 2019), pg. 6

Pollini v. Litteral, Not Reported in Fed. Supp. (2019)
2019 WL 236721

1

2
3
4
5

Notably, Kentucky courts used the harmless-error standard to review Kentucky Rule of Criminal Procedure 9.74 violations
at the time of Pollini's direct appeal as well. See, e.g., Garland v. Commonwealth, 127 S.W.3d 529, 538 (Ky. 2003);
Johnson v. Commonwealth, 12 S.W.3d 258, 266 (Ky. 1999); Scalf v. Commonwealth, No. 2003-CA-001275-MR, 2004
WL 539533, at *2 (Ky. Ct. App. 2004).
“Appellant Sherman Wagner was denied a fair trial by the prosecutor's misconduct throughout the trial and violated [the]
right to due process of law clause of both the federal and state constitutions.” Wagner, 581 F.3d at 416 (capitalization
altered throughout).
Wagner's brief included statements such as “the Prosecutor's pervasive conduct throughout the proceedings denied
[Wagner] ... a fair trial,” and “[t]he Prosecutor deliberately interjected irrelevant and prejudicial evidence throughout the
entire trial.” Id.
“The murder instruction allowed the jury to convict Pollini on the basis of a theory (intentional murder) that was not
supported by the evidence and thereby violated the unanimous verdict requirement of the Kentucky Constitution and the
majority verdict requirement of the United States Constitution.” (D.N. 28-3, PageID # 487)
Pollini asserted that “the instruction, which allowed the jury to convict Pollini on an intentional murder theory, violated his
right to a unanimous verdict under §§ 2, 7 and 11 of the Kentucky Constitution and his right to a majority verdict under the
6th and 14th Amendments”; “[t]hus, Pollini's right to a unanimous verdict and his right to a majority verdict were violated”;
and “[s]ince the murder instruction violated the unanimity requirement of Kentucky law and the majority verdict required
by the federal constitution, the conviction must be reversed for a new trial at which the jury is instructed only on wanton
murder.” (D.N. 28-3, PageID # 487-88, 490)

End of Document

© 2021 Thomson Reuters. No claim to original U.S.
Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

7

Appendix B: Pollini v. Litteral, 3:14-CV-689-DJH-RSE, 2019 WL 236721 (W.D. Ky. Jan. 15, 2019), pg. 7

Com. v. Pollini, 437 S.W.3d 144 (2014)

437 S.W.3d 144
Supreme Court of Kentucky.

COMMONWEALTH
of Kentucky, Appellant
v.
Jasper POLLINI, Appellee.
No. 2012–SC–000312–DG.
|
April 17, 2014.
|
Rehearing Denied Aug. 21, 2014.
Synopsis
Background: Defendant convicted of complicity to murder
and related offenses following joint trial filed motion to set
aside, vacate, or correct sentence based on claim that appellate
counsel was ineffective for failure to raise issue of trial court's
improper ex parte communication with jury after jury had
retired to deliberate. The Circuit Court, Jefferson County,
denied motion, and defendant appealed. The Court of Appeals
affirmed based on determination that claim of ineffective
assistance of appellate counsel was not cognizable in motion
to set aside, vacate, or correct sentence. On review, the
Supreme Court reversed and remanded for reconsideration
in light of Hollon v. Commonwealth. On remand, the Court
of Appeals ruled that appellate counsel rendered ineffective
assistance and awarded defendant new trial. Discretionary
review was granted.

Holdings: The Supreme Court, Scott, J., held that:
defendant did not waive claim that direct appeal counsel was
ineffective for failure to brief issue of trial court's improper
ex parte communication with jury;
trial court violated rule governing communications with jury
after it retired for deliberations;
caselaw holding that such violation was subject to harmless
error review applied retroactively on claim that appellate
counsel was ineffective for failure to argue issue in brief;
violation of rule governing trial court's communications with
jury after it retired for deliberations was harmless error.

Judgment of the Court of Appeals reversed; judgment of
Circuit Court reinstated.
Attorneys and Law Firms
*146 Jack Conway, Jeffrey Allan Cross, Counsel for
Appellant.
Timothy G. Arnold, Angela Elaine Slaton, Counsel for
Appellee.
Opinion
Opinion of the Court by Justice SCOTT.
A Jefferson Circuit jury found Appellee, Jasper Pollini, guilty
of complicity to murder, complicity to first-degree burglary,
complicity to second-degree burglary, and complicity to
receiving stolen property over $300. After Appellee's
sentence of life imprisonment was affirmed by this Court,
he filed an RCr 11.42 motion in the *147 trial court
alleging, among other things, that appellate counsel had
rendered ineffective assistance by failing to brief the issue
of the trial judge's ex parte written communication with the
jury after it had retired for deliberations. The circuit court
denied Appellee's motion, and the Court of Appeals affirmed
the order denying relief, holding that Appellee's claim of
ineffective assistance of appellate counsel (IAAC) was not
cognizable.
This Court subsequently vacated the Court of Appeals'
decision and remanded the case for reconsideration in light
of our holding in Hollon v. Commonwealth, 334 S.W.3d
431 (Ky.2010). In Hollon, we recognized that IAAC claims
premised upon appellate counsel's alleged failure to raise a
particular issue on direct appeal were cognizable in Kentucky.
Id. at 436. On remand, the Court of Appeals ruled that
Appellee's direct appeal counsel had rendered deficient
performance by failing to brief the ex parte communication
issue and granted Appellee a new trial.
We granted discretionary review, and the Commonwealth
now argues that we should reverse the Court of Appeals
because (1) Appellee waived his IAAC claim on appeal, (2)
the Court of Appeals erred by concluding that Appellee's RCr
9.74 issue could have succeeded on direct appeal, and (3)
the Court of Appeals failed to consider the experience of
Appellee's direct appeal counsel. For the following reasons,

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix C, Commonwealth v. Pollini, 437 S.W.3d 144 (Ky. 2014), pg. 1

1

Com. v. Pollini, 437 S.W.3d 144 (2014)

we reverse the Court of Appeals and reinstate the trial court's
order denying Appellee's RCr 11.42 motion.

I. BACKGROUND
The factual background underlying Appellee's convictions
has been thoroughly recounted in Pollini v. Commonwealth,
172 S.W.3d 418 (Ky.2005), and reiterated in Pollini
v. Commonwealth, No. 2006–SC–000835–MR, 2008 WL
203035 (Ky. Jan. 24, 2008). These cases explain that, in the
early morning hours of May 7, 2002, Appellee burglarized
two residential garages. The burglaries were the beginning
of a chain of events that ended with Appellee shooting and
killing Byron Pruitt.
Appellee was subsequently indicted for murder and the
garage burglaries, and his sister, Crystal Plank, was indicted
for lesser offenses related to the incident. Appellee and Plank
were tried together. After the jury had retired for deliberation,
it requested a copy of Plank's witness statement to the police.
The trial judge, without notifying the parties, advised the jury
that no transcript was available.1
Appellee was ultimately convicted of murder, first-degree
burglary, second-degree burglary, and receiving stolen
property as noted.

II. ANALYSIS
A. Appellee Did Not Waive His IAAC Claim on Appeal
of His RCr 11.42 Motion
As stated above, our principal reason for granting
discretionary review in this case was to consider whether the
Court of Appeals properly applied Hollon in its review of
Appellee's IAAC claim. However, we will first address the
Commonwealth's argument that Appellee waived his IAAC
claim on appeal of his RCr 11.42 motion. The Commonwealth
contends that Appellee did not brief an IAAC claim to the
Court of Appeals and that it was improper for the Court to
consider the claim sua sponte.
*148 The Commonwealth admits that Appellee made a
claim of IAAC in his RCr 11.42 motion to the circuit
court; however, it asserts that Appellee abandoned the IAAC
claim on his appeal of the trial court's denial of his motion.
The Commonwealth supports its argument by contrasting
Appellee's brief to the Court of Appeals with his earlier

RCr 11.42 motion to the trial court. The Commonwealth
points out that Appellee's argument pertaining to the ex parte
communication issue is almost word-for-word the same in the
RCr 11.42 motion as it is in the appellate brief. However, the
appellate brief's issue heading uses the term “trial counsel”
rather than just “counsel,” as was used in the RCr 11.42
motion. The Commonwealth points to several other similar
changes in Appellee's briefs to support its proposition that
appellate counsel consciously abandoned the IAAC claim on
appeal of the RCr 11.42 motion.
Nonetheless, even assuming the Commonwealth is correct
that Appellee failed to adequately assert his IAAC claim
in his appeal of the RCr 11.42 motion, the Commonwealth
has not cited any legal authority in support of its claimed
relief. The cases cited by the Commonwealth demonstrate
that, generally, appellate courts will decline to reach issues
an appellant raised in a lower court but failed to brief on
appeal. See Grange Mut. Ins. Co. v. Trude, 151 S.W.3d 803,
815 (Ky.2004) (holding that failure to address discovery
request in appellate brief constituted a waiver of the issue);
Commonwealth v. Bivins, 740 S.W.2d 954, 956 (Ky.1987)
(“Normally, assignments of error not. argued in an appellant's
brief are waived.”). These cases prove only that appellate
courts are permitted to ignore claims that have not been
adequately raised for review. However, these cases do not go
so far as to require appellate courts to ignore claims that have
not been thoroughly briefed on appeal.
In fact, this Court has explicitly stated that an appellate
court may decide an issue not briefed on appeal when that
issue “flows naturally under our appellate review of the
issue raised.” Barker v. Commonwealth, 341 S.W.3d 112,
114 (Ky.2011); see also Mitchell v. Hadl, 816 S.W.2d 183,
185 (Ky.1991) (“When the facts reveal a fundamental basis
for decision not presented by the parties, it is our duty to
address the issue to avoid a misleading application of the
law.”). Given that this case was remanded to the Court of
Appeals to be reconsidered in light of our holding in Hollon
that IAAC is a cognizable claim in Kentucky, the issue of
whether Appellee's appellate counsel was ineffective could
certainly be deemed to “flow naturally” from the Court of
Appeals' review of the issues on appeal. See Barker, 341
S.W.3d at 114. Accordingly, we find no error in the Court of
Appeals' consideration of Appellee's IAAC claim. Thus, the
Commonwealth's first argument does not justify reversal of
the Court of Appeals.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix C, Commonwealth v. Pollini, 437 S.W.3d 144 (Ky. 2014), pg. 2

2

Com. v. Pollini, 437 S.W.3d 144 (2014)

B. The Court of Appeals Erred by Ruling in Favor of
Appellee's IAAC Claim
The Commonwealth next argues that the Court of Appeals
erroneously determined that Appellee suffered ineffective
assistance of appellate counsel. More specifically, the
Commonwealth argues: (1) that Appellee failed to prove that
the ex parte communication issue was “clearly stronger” than
the other issues briefed by his appellate counsel and (2) that
Appellee also failed to show he was prejudiced by appellate
counsel's failure to brief the issue.
Under the standard articulated by this Court in Hollon, to
succeed on an *149 IAAC claim premised upon appellate
counsel's alleged failure to raise a particular issue on
direct appeal, the defendant must establish that “counsel's
performance was deficient, overcoming a strong presumption
that appellate counsel's choice of issues to present to
the appellate court was a reasonable exercise of appellate
strategy.” 334 S.W.3d at 436. The omitted issue must be
“clearly stronger” than those presented for the presumption
of effective assistance to be overcome. Id. Additionally, the
defendant must also establish that “he or she was prejudiced
by the deficient performance, which ... requires a showing that
absent counsel's deficient performance there is a reasonable
probability that the appeal would have succeeded.” Id. at 437.
Put more concisely, our evaluation of an IAAC claim will
require a showing of deficient performance plus prejudice.
See id. at 436–37. We review the components of an IAAC
claim de novo. See Brown v. Commonwealth, 253 S.W.3d 490,
500 (Ky.2008) ( “On appeal, the reviewing court looks de
novo at counsel's performance and any potential deficiency
caused by counsel's performance.”).
Here, Appellee properly argues both deficient performance
and prejudice. However, the deficient performance
component of an ineffectiveness claim need not be addressed
first. See Strickland v. Washington, 466 U.S. 668, 697, 104
S.Ct. 2052, 80 L.Ed.2d 674 (1984) (“If it is easier to dispose
of an ineffectiveness claim on the ground of lack of sufficient
prejudice, which we expect will often be so, that course
should be followed.”). As explained above, the deficient
performance prong of the Hollon IAAC standard requires
Appellee to prove that the issue appellate counsel failed
to brief was “clearly stronger” than the issues that it did
brief on appeal. Hollon, 334 S.W.3d at 436. In light of
the difficulty of assessing the relative strengths of each of
the numerous claims Appellee argued on direct appeal, we
begin our analysis of Appellee's IAAC claim by considering
whether Appellee was actually prejudiced by direct appeal

counsel's failure to brief the issue of the trial judge's ex parte
communication with the jury.
As previously explained, the jury requested a copy of Plank's
witness statement to the police, and the trial judge responded
in writing, without notifying either party of the request, that
none was available. Now, Appellee argues that the trial judge's
ex parte communication with the jury was a violation of RCr
9.74, and that direct appeal counsel's failure to brief the issue
prejudiced him.
We agree with Appellee that the trial judge violated RCr
9.74, which states, “No information requested by the jury or
any juror after the jury has retired for deliberation shall be
given except in open court in the presence of the defendant ...
and the entire jury, and in the presence of or after reasonable
notice to counsel for the parties.” The trial judge in this case
violated the plain language of RCr 9.74 when, after receiving
a request for information from the jury after it had retired for
deliberation, he responded outside the presence of Appellee
and without having provided reasonable notice to counsel for
both parties. See McAtee v. Commonwealth, 413 S.W.3d 608,
625 (Ky.2013).
However, appellate counsel's failure to brief the issue of
the trial judge's violation of RCr 9.74, standing alone, does
not necessarily establish the prejudice component of an
IAAC claim. To prove prejudice, Appellee must make a
“showing that absent counsel's deficient performance there
is a reasonable probability that the appeal would have
succeeded.” Hollon, 334 S.W.3d at 437. Thus, we must
determine whether the appeal would have succeeded if not
for appellate counsel's failure to brief *150 the ex parte
communication issue on direct appeal.
If the trial court's violation of RCr 9.74 was harmless error
in this instance, as alleged by the Commonwealth, it would
not have provided grounds for a successful direct appeal.
Therefore, we must first determine whether the trial court's
written communication with the jury was harmless error if we
are to assess whether Appellee was prejudiced by appellate
counsel's failure to brief the issue.
However, Appellee argues that we should not consider
whether the trial judge's RCr 9.74 violation was harmless
error because, at the time his appellate brief was filed, in
2004, this Court viewed any and all ex parte communications
between a judge and jury as structural error. According to
Appellee, under the standard of review in use at the time,

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix C, Commonwealth v. Pollini, 437 S.W.3d 144 (Ky. 2014), pg. 3

3

Com. v. Pollini, 437 S.W.3d 144 (2014)

RCr 9.74 violations automatically amounted to reversible
error. Thus, any failure of appellate counsel to brief an
RCr 9.74 violation occurring in 2004 would satisfy the
prejudice component of an IAAC claim because it would
create a “reasonable probability that the appeal would have
succeeded.” Hollon, 334 S.W.3d at 437. The Commonwealth,
for its part, asserts that the standard of review for a violation
of RCr 9.74 has always been harmless error.
However, we will not conduct an inquiry into which appellate
standard of review was applicable to RCr 9.74 violations
in 2004 without first questioning whether the standard at
issue constitutes procedural or substantive law. This Court
has previously held that when a court decision results “in
a procedural rather than substantive change in the law”
it has retroactive application. Commonwealth v. Alexander,
5 S.W.3d 104, 106 (Ky.1999); see also Miller v. Florida,
482 U.S. 423, 430, 107 S.Ct. 2446, 96 L.Ed.2d 351 (1987)
(quoting Dobbert v. Florida, 432 U.S. 282, 293, 97 S.Ct.
2290, 53 L.Ed.2d 344 (1977)) (“[N]o ex post facto violation
occurs if a change does not alter ‘substantial personal rights,’
but merely changes ‘modes of procedure which do not
affect matters of substance.’ ”). Therefore, if the standard
of appellate review can be considered “procedural rather
than substantive,” we would retroactively apply the current
standard to Appellee's case rather than exhuming whatever
standard existed in 2004. See Alexander, 5 S.W.3d at 106.
We note that this Court has not yet considered the specific
question of whether an appellate standard of review is
procedural. However, in Commonwealth v. Reneer, 734
S.W.2d 794 (Ky.1987), we examined whether KRS 532.055,
Kentucky's “truth in sentencing” statute was procedural or
substantive in nature. Id. at 796. The primary effect of
the statute was to bifurcate felony trials into guilt and
sentencing phases. Id. Additionally, KRS 532.055 allowed the
jury, during the sentencing phase, to hear certain evidence
of prior convictions that would not have been admissible
previously. Id. We held that the statute was procedural under
the reasoning that “[t]he statute does not add or remove
any element necessary to convict of any crime, and it does
not increase or lower the penalty that can be imposed upon
conviction.” Id.
The rationale employed in Reneer to determine whether a
statute was procedural is instructive in our present inquiry
into whether an appellate. standard of review is procedural
or substantive. In fact, the Fifth Circuit has adopted a similar
rationale for determining whether a law is procedural, and,

unlike this Court, it has had occasion to apply that reasoning
to an appellate standard of review. In United States v. Mejia,
the Fifth Circuit determined that an appellate standard of
review is “procedural rather than substantive because *151
it neither increases the punishment nor changes the elements
of the offense or the facts that the government must prove
at trial.” 844 F.2d 209, 211 (5th Cir.1988). Additionally, in
another case, the Fifth Circuit explained that an appellate
standard of review is procedural because “alteration of the
appellate standard of review upsets no legitimate reliance
interest by a defendant; it could not have induced alteration of
the behavior that led to the crime.” United States v. Bell, 371
F.3d 239, 242 (5th Cir.2004) (citation omitted). Applying our
rationale from Reneer, we must agree with the Fifth Circuit
that an appellate standard of review is a matter of procedural,
rather than substantive, law.2
In this case, the standard of review at issue (whether we
ultimately determine that it is the structural or harmless error
standard) will be used to review the actions of the trial judge
and not the actions of Appellee. The standard of review will
have no effect on Appellee's punishment or the elements of
his offense, see Reneer, 734 S.W.2d at 796; Mejia, 844 F.2d
at 211; nor could it have encouraged Appellee to alter his
behavior prior to the crime, see Bell, 371 F.3d at 242 (citation
omitted). Therefore, we must conclude that the appellate
standard of review of the RCr 9.74 violation in this case
is procedural, rather than substantive, law. Accordingly, we
will apply our current standard of review to the trial judge's
violation of RCr 9.74 without undertaking any consideration
of what the standard may have been in 2004 or whether the.
standard was different at all. See Alexander, 5 S.W.3d at 106.
In a recent decision from this Court, we clearly articulated that
harmless error analysis is our current standard of review for a
trial judge's violation of RCr 9.74. McAtee v. Commonwealth,
413 S.W.3d 608, 626–27 (Ky.2013); see also Welch v.
Commonwealth, 235 S.W.3d 555, 558 (Ky.2007) (reviewing
trial court's violation of RCr 9.74 for harmless error). In
McAtee, we also defined harmless error in the context of ex
parte communications between judge and jury, explaining it
as “contact [that] does not impugn the fundamental fairness
of an otherwise constitutionally acceptable trial.” 413 S.W.3d
at 626. Therefore, we will review the trial judge's violation of
RCr 9.74 for harmless error by making McAtee's suggested
inquiry into whether the error impugned the fundamental
fairness of the trial. If the RCr 9.74 violation was, in fact,
harmful error, then a “reasonable probability” would have
existed that Appellee's direct appeal would have succeeded,

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix C, Commonwealth v. Pollini, 437 S.W.3d 144 (Ky. 2014), pg. 4

4

Com. v. Pollini, 437 S.W.3d 144 (2014)

which would establish the prejudice prong of our IAAC
analysis. Hollon, 334 S.W.3d at 437.
We begin our analysis of whether the trial judge's actions
were harmless error by noting that the Court of Appeals
concluded the trial court's violation of RCr 9.74 would have
been successful if raised on appeal. The Court of Appeals
based its finding of prejudice on the fact that a transcript of
Plank's testimony physically existed and that the trial judge
misled the jury by informing them that the transcript was
unavailable. However, the Court of Appeals did so without
any consideration of whether the RCr 9.74 issue, assuming it
had been raised on direct appeal, would have been deemed
harmless and, therefore, nonprejudicial by this Court.
*152 While the record reveals that a transcript of Plank's
testimony did in fact exist, it is also the case that the trial
court had earlier ruled that it was not admissible into evidence.
Moreover, the prosecution and defense counsel never agreed
to certify a transcript of Plank's testimony, and the transcript
was never read in open court.3 As such, it would have been
error for the trial judge to provide the transcript to the jury. See
Sanborn v. Commonwealth, 754 S.W.2d 534, 540 (Ky.1988),
overruled on other grounds by Hudson v. Commonwealth, 202
S.W.3d 17 (Ky.2006) (explaining that it is reversible error to
admit the prosecution's transcript of a taped witness statement
when there has been no certification or agreement as to its
veracity). Therefore, at the time the trial judge responded to
the jury's question, he was correct in stating that there was no
transcript available.
Nonetheless, Appellee does not argue that the trial court's
failure to provide the Plank transcript to the jury was harmful
error, rather Appellee asserts that the error was the trial court's
failure to permit Appellee and his counsel to participate in
how the jury's transcript question was addressed. However,
since the trial judge could not have provided the transcript to
the jury, defense counsel's only options would have been to
agree to enter the transcript into evidence and have it read in
open court or to have the jury come back into open court and
listen to selected portions of Plank's taped witness statement.
This would be taking place within a trial that had closed and
during the time the jury was in its deliberations. Appellee's
argument that he suffered harmful error is unavailing because
he has not demonstrated that the exclusion of defense counsel
from the formulation of the trial court's response to the jury's
question “impugn[ed] the fundamental fairness” of the trial,
as required for a finding of harmful error under McAtee, 413
S.W.3d at 626–27.

In retrospect, the record indicates that Appellee's counsel
actively opposed the admission of transcripts of taped
statements at least four times during the trial. In fact, defense
counsel repeatedly asserted that audio recordings provided
better evidence of a witness's statements than a subjectively
prepared written transcript. Appellee even admits in his brief
that his counsel consistently argued that the tape was the best
evidence and that counsel most likely would have requested to
play the tape for the jury again rather than read the transcript
in open court. Because defense counsel was unlikely to argue
that the transcript should be read in open court, we find that
the deprivation of this opportunity was harmless error.
Furthermore, under the circumstances presented in this case,
we also hold that it was harmless error for defense counsel
to not be given the opportunity to replay, in open court, the
audiotape of Plank's statement. Before the jury retired for
deliberations, it was provided with an audiotape of Plank's
statement, which it was allowed to listen to at will in the
jury room. Although the jury was having difficulty locating
Plank's statement on the audiotape, we cannot find that it
was harmful error for defense counsel to be denied the
opportunity to argue that the jury should watch the video in
open court. The tape was still available in the jury room. It
may have been more convenient for the jury if the trial court
would have queued up the audiotape to the relevant portion
of testimony, but the failure to do so does not constitute
harmful error because it is not significant enough to “impugn
the fundamental fairness of an otherwise constitutionally
acceptable trial.” Id. at 626–27.
*153 Having determined that the trial court's failure to
answer the jury's question in the presence of counsel was
harmless error, it is apparent that, even if it had been properly
briefed by appellate counsel, the issue of the trial court's RCr
9.74 violation would not have had a “reasonable probability”
of succeeding on appeal. See Hollon, 334 S.W.3d at 437.
Therefore, Appellee has failed to establish that he was
prejudiced by appellate counsel's failure to brief the 9.74 issue
on direct appeal. Id. Accordingly, we must reverse the Court
of Appeals' decision holding that Appellee suffered IAAC and
reinstate the trial court's order denying Appellee's RCr 11.42
motion.
Because Appellee's failure to prove the prejudice component
alone requires us to reinstate the trial court's denial of
RCr 11.42 relief, we need not consider whether direct
appeal counsel's performance was deficient. See id. at

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix C, Commonwealth v. Pollini, 437 S.W.3d 144 (Ky. 2014), pg. 5

5

Com. v. Pollini, 437 S.W.3d 144 (2014)

436–37 (holding that a successful IAAC claim requires
a showing of both deficient performance and prejudice).
Additionally, because the Commonwealth has already shown
that Appellee's RCr 11.42 claim is without merit, we decline
to address the Commonwealth's argument that the Court
of Appeals should have given weight to the experience of
Appellee's direct appeal counsel.

For the foregoing reasons, the Court of Appeals is reversed,
and the trial court's order denying relief for ineffective
assistance of appellate counsel is reinstated.

MINTON, C.J.; ABRAMSON, CUNNINGHAM, NOBLE,
and VENTERS, JJ., concur. KELLER, J., not sitting.
All Citations

III. CONCLUSION

437 S.W.3d 144

Footnotes

1
2

3

The exact wording of the jury's request was, “Does there exist a transcript of the Plank conversation w/ Police? Difficult
to locate on the tape. If so, can we pls request?” In response, the trial judge wrote, “There's none available.”
Additionally, case law reveals that the various federal appellate courts to have taken up the issue have characterized
appellate standards of review as matters of procedural, rather than substantive, law. See, e.g., United States v. Bell, 371
F.3d 239, 241–42 (5th Cir.2004); United States v. Martin, 363 F.3d 25, 46 (1st Cir.2004); United States v. Mallon, 345
F.3d 943, 946–47 (7th Cir.2003); United States v. Willey, 350 F.3d 736, 738–39 (8th Cir.2003).
The full extent of the Plank transcript's use was that the prosecution blew up a small portion of it and displayed that
portion during its closing argument.

End of Document

© 2021 Thomson Reuters. No claim to original U.S.
Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix C, Commonwealth v. Pollini, 437 S.W.3d 144 (Ky. 2014), pg. 6

6

RENDERED: DECEMBER 22, 2011; 10:00 A.M.
TO BE PUBLISHED

Commonwealth of Kentucky
Court of Appeals
NO. 2009-CA-000964-MR
JASPER POLLINI

APPELLANT

ON REMAND FROM SUPREME COURT OF KENTUCKY
NO. 2010-SC-000504-D
v.

APPEAL FROM JEFFERSON CIRCUIT COURT
HONORABLE IRV MAZE, JUDGE
ACTION NO. 02-CR-001146

COMMONWEALTH OF KENTUCKY

APPELLEE

OPINION
VACATING AND REMANDING
** ** ** ** **
BEFORE: COMBS, KELLER, AND LAMBERT, JUDGES.
LAMBERT, JUDGE: This case comes to us on remand from the Kentucky
Supreme Court for consideration of Jasper Pollini’s ineffective assistance of
appellate counsel claim under Hollon v. Commonwealth, 334 S.W.3d 431 (Ky.

Appendix D: Pollini v. Commonwealth (Ky.Ct.App., 2012), pg. 1

2010). After careful review, we vacate and remand to the trial court for
proceedings consistent with this opinion.
The pertinent facts of this case, as set forth by the Kentucky Supreme Court,
are as follows:
In the early morning hours of May 7, 2002, Appellant,
who was seventeen years old at the time these crimes
were committed, broke into Brian Murphy's garage and
stole some tools and a generator. Apparently unable to
transport the generator, Appellant returned to his nearby
home and sought the assistance of Jason Edwards, the
boyfriend of Appellant's sister, Crystal Plank. Edwards
drove Appellant back to the area and the pair loaded the
generator from Murphy's garage into the trunk of
Edward's car. Appellant told Edwards to stay in the car
and then proceeded to use a screwdriver to break into the
nearby garage of Dan Ziegler.
Ziegler awoke shortly after 5:00 a.m. to the sound of his
alarm system beeping. While investigating the source for
the alarm, Ziegler went into his garage and saw
Appellant. Ziegler testified that he perceived Appellant
to have a weapon in his hand, but was not sure what it
was. Ziegler told Appellant to stop what he was doing or
he would “blow his head off.” Appellant fled from the
scene and was chased into some nearby woods by
Ziegler. Ziegler testified that he soon heard a car drive
away after losing sight of Appellant in the woods. After
returning to his home, Ziegler called 911 and his
neighbor, Byron Pruitt, to report the incident and to
advise Pruitt to check his property. After talking with
Ziegler, Pruitt armed himself with an automatic pistol
and a flashlight and began investigating the area.
Meanwhile, Appellant and Edwards drove back to
Appellant's house. Edwards removed the generator from
his car, covered the car, and then went into the house.
Shortly after retreating into the house, Appellant asked
Edwards to take him back to Ziegler's residence to
retrieve a toolbox he had left at the scene. When
-2Appendix D: Pollini v. Commonwealth (Ky.Ct.App., 2012), pg. 2

Edwards refused to return to Ziegler's residence,
Appellant persuaded his sister, Crystal Plank, to drive
him back to the scene to retrieve his toolbox.
Between sixteen and thirty minutes after first being
confronted by Zeigler, Appellant and Plank returned to
the scene of the burglaries. Appellant stated that he
armed himself with a semi-automatic pistol immediately
before his return to the scene of the crimes because he
had been threatened by Ziegler. Upon their return to the
scene, Appellant instructed Plank to turn off the lights on
the car because he was about to get out to retrieve the
toolbox. As Plank stopped the car, she observed a
flashlight coming toward the car. Appellant hurriedly
instructed Plank to back up; however, Plank had
difficulty doing so due to poor visibility. Appellant then
fired his gun out the window of Plank's vehicle and the
bullet pierced Pruitt in the throat. Pruitt died shortly
thereafter from his injury. Immediately after the
shooting, Appellant and Plank fled the scene, but were
apprehended, along with Edwards, later that day.
Pollini v. Commonwealth, 172 S.W.3d 418, 421-22 (Ky. 2005).
Pollini and his sister, Plank, were tried together. Pollini was
ultimately convicted of capital murder (complicity), first-degree burglary
(complicity), second-degree burglary (complicity), and receiving stolen property
over $300.00 (complicity). Id. at 421. On September 22, 2005, the Kentucky
Supreme Court vacated Pollini’s capital murder conviction and remanded his case
for resentencing on noncapital murder. Pollini was resentenced, and the sentence
was affirmed on direct appeal. Pollini v. Commonwealth, 2008 WL 203035 (Ky.
2008) (2006-SC-000835-MR).
Thereafter, Pollini filed a post-conviction motion for a new trial under
Kentucky Rules of Criminal Procedure (RCr) 11.42, alleging ineffective assistance
-3Appendix D: Pollini v. Commonwealth (Ky.Ct.App., 2012), pg. 3

of counsel (IAC) and ineffective assistance of appellate counsel (IAAC). Upon
review, the trial court denied Pollini’s motion without a hearing. Pollini then
appealed to this Court, and we rendered an opinion on July 16, 2010, affirming the
trial court’s denial of Pollini’s IAC claims and holding that Pollini’s IAAC claims
were not cognizant under Hicks v. Commonwealth, 825 S.W.2d 280 (Ky. 1992).
However, on April 21, 2011, the Kentucky Supreme Court rendered Hollon
and ruled that the time had come for recognition of IAAC claims premised upon
appellate counsel’s alleged failure to raise a particular issue on direct appeal.
Specifically, the Hollon Court stated:
We are thus persuaded that it is time, indeed past time, to
overrule Hicks and the cases relying upon it and to
recognize IAAC claims premised upon appellate
counsel's alleged failure to raise a particular issue on
direct appeal. To succeed on such a claim, the defendant
must establish that counsel's performance was deficient,
overcoming a strong presumption that appellate counsel's
choice of issues to present to the appellate court was a
reasonable exercise of appellate strategy. As the
Supreme Court noted in Smith, “‘[g]enerally, only when
ignored issues are clearly stronger than those presented,
will the presumption of effective assistance be
overcome.’” 528 U.S. at 288, 120 S.Ct. 746 (quoting
Gray v. Greer, 800 F.2d 644, 646 (7th Cir. 1986)). We
further emphasize “ignored issues” to underscore that
IAAC claims will not be premised on inartful arguments
or missed case citations; rather counsel must have
omitted completely an issue that should have been
presented on direct appeal. For further clarity, we
additionally emphasize that IAAC claims are limited to
counsel's performance on direct appeal; there is no
counterpart for counsel's performance on RCr 11.42
motions or other requests for post-conviction relief.
Finally, the defendant must also establish that he or she
was prejudiced by the deficient performance, which, as
-4Appendix D: Pollini v. Commonwealth (Ky.Ct.App., 2012), pg. 4

noted, requires a showing that absent counsel's deficient
performance there is a reasonable probability that the
appeal would have succeeded. Smith, supra.
Hollon, supra, at 436-37.
Upon remand, this Court permitted the parties to file supplemental
briefs addressing the merits of Pollini’s IAAC claim. Just as he did before the trial
court, Pollini argues that he received IAAC when his counsel on direct appeal
failed to present the issue of ex parte contact between the judge and the jury to the
Kentucky Supreme Court. Specifically, Pollini noted that during deliberations, the
jury asked the following question: “Does there exist a transcript of the Plank
conversation with police? Difficult to locate on tape. If so, can we please
request?” Without notifying either counsel, the trial judge responded to their note
by writing “There’s none available.” At some point after the verdict, Plank’s
counsel discovered this ex parte contact and notified Pollini’s counsel.
Plank raised this issue on appeal, and a panel of this Court found that
the trial court’s failure to notify counsel of this ex parte contact was a violation of
RCr 9.74 (no information may be given to a jury except in open court and in
presence of defendant and counsel). Plank v. Commonwealth, 2005 WL 1313838
(Ky. App. 2005) (2003-CA-001861-MR). However, this Court did not determine
whether the error was reversible error because it was already reversing Plank’s
conviction on other grounds. Id. at 9.
In its supplemental brief, the Commonwealth argues that while Pollini
raised his IAAC claim to the trial court in his RCr 11.42 motion, he abandoned the
-5Appendix D: Pollini v. Commonwealth (Ky.Ct.App., 2012), pg. 5

claim in the RCr 11.42 appeal to this Court. Instead, the Commonwealth argues, a
panel of this Court read one of Pollini’s appellate claims as including both an IAC
and an IAAC component. The Commonwealth urges this court to deny review of
Pollini’s IAAC claim on remand because Pollini did not flesh out how his appellate
counsel was ineffective in his appeal of the denial of his RCr 11.42 motion.
We disagree with the Commonwealth’s argument in this regard. A
careful review of the record reflects that in his original RCr 11.42 motion to the
trial court, Pollini argued that he received IAAC in his direct appeal when
appellate counsel failed to raise the alleged ex parte contact between the judge and
the jury. In its April 21, 2009, order denying Pollini relief on his RCr 11.42
claims, the trial court summarily denied Pollini’s claim for IAAC regarding the ex
parte contact. The trial court found that because a panel of this Court reversed
Plank’s conviction on other grounds, her claim concerning the ex parte contact was
rendered moot. Based on this, the trial court determined that Pollini’s claim was
also moot and must be dismissed.
In his original RCr 11.42 brief to this Court, Pollini again raised the
issue of the improper ex parte contact, pointing out that it prejudiced him by
preventing him from litigating an issue that had been deemed reversible by
Kentucky Courts. Presumably, because Pollini, via counsel, phrased the argument
in terms of his trial counsel being ineffective, the Commonwealth urges this Court
to hold that Pollini abandoned his IAAC claim on appeal. We simply disagree that
Pollini abandoned or waived his IAAC claim on appeal to this Court. His brief
-6Appendix D: Pollini v. Commonwealth (Ky.Ct.App., 2012), pg. 6

clearly presents the issue of the ex parte contact and argues that had original
counsel been aware of the contact, he would have notified the trial court of the
error. Furthermore, despite knowing of the ex parte contact, counsel on direct
appeal failed to present the error to the Supreme Court for review.
We find it troubling that the trial court recognized that this Court
found the ex parte contact between the judge and jury to be erroneous under RCr
9.74, but then went on to summarily deny Pollini relief based on the same
erroneous ex parte contact. We also find error with the trial court’s statement that
because Plank’s conviction was reversed on other grounds, Pollini’s claims were
rendered moot. Because Plank’s conviction was reversed on other grounds, this
Court was not forced to determine whether the ex parte contact was a reversible
error, but it does not follow that Pollini’s arguments were rendered moot.
Turning to whether the omission of ex parte contact on direct appeal
amounted to IAAC, we look to Hollon, supra, for guidance. In Hollon, the
Kentucky Supreme Court described how the trial court and the appellate courts
would work together to address IAAC claims. The court noted:
For clarity, we note some general principles regarding the
courts' roles in review of IAAC claims. The trial court
will address the IAAC issue under the aforementioned
standards entering findings and an appropriate order
pursuant to RCr 11.42(6). Once the trial court rules on a
defendant's IAAC claim, that court's order will be
reviewable in the same manner as orders addressing RCr
11.42 motions are currently reviewed. See RCr 11.42(7)
(either movant or Commonwealth may appeal from
court's final order on RCr 11.42 motion).

-7Appendix D: Pollini v. Commonwealth (Ky.Ct.App., 2012), pg. 7

If the trial court finds that the defendant received
ineffective appellate assistance and is entitled to relief
under the Strickland v. Washington standard, as noted
above, the trial court should enter appropriate findings
and an order vacating the original judgment. We depart
from the approach, adopted by some courts, which also
requires the trial court to reenter the original judgment so
that an appeal of the omitted issue may proceed.
Kentucky trial courts should not reenter the original
judgment. The matter-of-right appeal guaranteed by §
115 of the Kentucky Constitution has concluded and it is
not necessary to reenter the judgment in order for the
omitted issue(s) to receive appellate review; any omitted
issue or issues will be reviewed as part-and-parcel of the
appeal of the trial court's order on the RCr 11.42 motion.
On the appeal of the trial court's order on the RCr 11.42
motion, it is incumbent on the Court of Appeals to review
in the first instance the trial court's ruling regarding
IAAC. If the Court of Appeals concludes that there was
ineffective appellate assistance, then it should proceed to
address the omitted issue or issues on which the IAAC
claim is based. Should the Court of Appeals conclude
that there was no IAAC meriting relief then, of course, it
would be unnecessary for that Court to address the issue
or issues omitted from the matter-of-right appeal. Any
final opinion of the Court of Appeals would, as always,
be subject to discretionary review by the Supreme Court
pursuant to CR 76.20.
Hollon, 334 S.W.3d at 439-40. Thus, in the instant case, we must first address
whether Pollini received IAAC when his appellate counsel failed to raise the ex
parte contact as error to the Supreme Court. Per Hollon, counsel’s failure to raise
such contact must have been a stronger issue than the issues appellate counsel did
present on appeal in order to overcome the presumption of effective assistance of
counsel. A review of the record indicates that the existence of ex parte contact
between the judge and the jury is indeed as strong as the claims Pollini’s appellate
-8Appendix D: Pollini v. Commonwealth (Ky.Ct.App., 2012), pg. 8

counsel did raise. Thus, we conclude that appellate counsel’s failure to raise the
issue on direct appeal amounts to ineffective assistance of counsel.
Turning to the merits of the omitted issue, we conclude that the omitted ex
parte contact between the judge and jury in this case amounts to reversible error.
A review of the record indicates that while the judge instructed the jury that the
transcript of Plank’s conversation with police did not exist, in fact the transcript
did exist, but had not been entered into the record in its entirety. In this court’s
opinion in Plank, supra, this issue was discussed at length. This Court stated:
It must be noted that during the trial, [Plank’s] defense
counsel had a transcript of [Plank’s] statement to police
prepared and sought to have it admitted as evidence
along with the tape of [Plank's] statement which was
admitted. The court denied admission of the transcript
on grounds that defense counsel did not cite adequate
legal authority for its admission and/or because the
Commonwealth had not had the opportunity to certify the
transcript. (The prosecution admitted that they had
received the transcript prior to trial, but claimed they had
failed to certify it because they were aware that
[Pollini’s] counsel opposed the admission of the
transcript of [Plank’s] statement.) The trial court stated
that the jury would have the tape of [Plank's] statement
for its deliberations and they could play it as many times
as they wished. It must also be noted that the
Commonwealth blew up a portion of this very transcript
of [Plank’s] statement and used it during its closing
argument devoted to the case against [Plank].
The Commonwealth's position on this issue is that the
trial court correctly answered the jury's question (since
the transcript of [Plank’s] statement was not admitted
into evidence, it was not available) and thus no
information was given to the jury such that the notice
requirements of RCr 9.74 would have been invoked. We
disagree that the notice requirements of RCr 9.74 were
-9Appendix D: Pollini v. Commonwealth (Ky.Ct.App., 2012), pg. 9

not applicable in this case. In our view, the court's
answer, “There's None Available”, was itself information
given to the jury that required notice to the parties and to
counsel. The trial court was most assuredly aware of the
desire of [Plank's] counsel to have this transcript before
the jury and it is very bothersome to this Court that
counsel was never even given notice that they had
requested the transcript. This is especially true in light of
the following: the Commonwealth used a selected portion
of this very transcript in its closing argument; there were
questions regarding the audibility of the audiotape of
[Plank’s] statement; and dicta in Perdue v.
Commonwealth, 916 S.W.2d 148, 155 (Ky. 1996),
regarding the jury's access to transcripts of tape
recordings. Given our rulings above, however, we need
not proceed to an analysis of whether this error warranted
reversal in this case.
Plank, supra, at 8-9. The jury’s note regarding Plank’s statement to police clearly
indicates that they were unable to understand or find portions of Plank’s statements
in the videotape of her testimony. The transcript did in fact exist, and thus the
judge’s response to the jury was erroneous and misleading, at best. While the
record indicates that Pollini had at some point objected to the introduction of
Plank’s statement to police, at the very least, the judge was required to present the
jury’s request to counsel in Pollini’s presence. Accordingly, the trial court
committed reversible error when it provided false information outside of Pollini
and counsel’s presence to the jury. This is exactly the behavior that RCr 9.74 is
intended to prevent.
Based on this egregious error, we vacate Pollini’s convictions and remand
this matter to the trial court for proceedings consistent with this opinion.
ALL CONCUR.
-10Appendix D: Pollini v. Commonwealth (Ky.Ct.App., 2012), pg. 10

BRIEF FOR APPELLANT:

BRIEF FOR APPELLEE:

Jasper Pollini, Pro Se
Eddyville, Kentucky

Jack Conway
Attorney General of Kentucky
Jeffrey A. Cross
Assistant Attorney General
Frankfort, Kentucky

-11Appendix D: Pollini v. Commonwealth (Ky.Ct.App., 2012), pg. 11

Case 3:14-cv-00689-DJH-RSE Document 28-3 Filed 07/22/15 Page 114 of 1145 PageID #:
386

CASE NO. 02-CR-1146

JEFFERSON CIRCUIT COURT
DIVISION TEN (10)
JUDGE IRV MAZE

JASPER POLLINI

MOVANT/DEFENDANT

V.

OPINION AND ORDER

COMMONWEALTH

OF KENCTUCKY

****

RESPONDENT/PLAINTIFF

****

****

This matter is before the Court on Defendant's RCr 11.42 Motion to Vacate, Set
Aside or Correct the Judgment.
stands submitted.

The Commonwealth filed its response and the matter

The Court has reviewed the file and the videotaped hearings and trial

at which the Defendant was found guilty of his charges.

For the reasons stated in this

opinion, this Court finds that Defendant's Motion must be DENIED.
FACTS
On June 19, 2003, Defendant,

Jasper Pollini, was convicted,

Complicity

to

Murder, Complicity to Burglary in the First Degree, Complicity to Burglary in the Second
Degree, and Complicity to Receiving Stolen Property Over $300, by a jury in Jefferson
County Circuit Court.

Pollini was sentenced to life without parole for 25 years for the

Murder of Byron Pruitt, 15 years to serve for the conviction of Burglary in the First
Degree, 10 years to serve for the conviction of Burglary in the Second Degree, and 1

Pollini-0114
Appendix E: Pollini v. Commonwealth, Jefferson (Ky.) Circuit Court, 2009, pg. 1

Case 3:14-cv-00689-DJH-RSE Document 28-3 Filed 07/22/15 Page 115 of 1145 PageID #:
387

year for the conviction of Receiving Stolen Property over $300. The Court ordered for
all sentences to run concurrent.
On September

22, 2005, The Supreme

Court of Kentucky vacated

murder sentence and remanded in part for the resentencing.

Pollini's

The Court held that, as a

matter of law, there was insufficient evidence to prove that Pollini murdered Pruitt while
Pollini was engaged in the commission of Burglary in the First Degree or that Pollini was
in immediate flight after the burglary of Zeigler's garage. Pollini v. Commonwelath,
S.W.3d 418, 432(Ky.2005).

172

The Supreme Court of Kentucky vacated and remanded

the case in part for the resentencing of Pollini's on noncapital murder. Id. at 432.
On January 24, 2008, the Supreme Court of Kentucky affirmed Pollini's new
sentence

as

imposed

on

remand

by the

Jefferson

Circuit

Commonwealth, 2008 WL 203035 (Ky. 2008) (unpublished opinion).
was resentenced to life imprisonment,

to run consecutively

Court.

Pollini

v.

On remand, Pollini

with his other sentences

pertaining to this case. Id.
Now comes Defendant, Pollini, on his RCr 11.42 Motion to Vacate, Set Aside or
Correct the Judgment asserting several claims of ineffective assistance of counsel by
his trial counsel.
OPINION
Post conviction relief primarily lies in either RCr 11.42 or CR 60.02 proceedings.
The Kentucky Supreme Court in Gross v. Commonwealth,
detailed the process by which a Defendant
defendant must file a direct appeal.

648 S.W.2d 853 (KY. 1983),

may challenge a judgment.

First, the

Next, he must avail himself of RCr 11.42.

The

Kentucky Supreme Court noted that RCr 11.42 applies to alleged errors that led to a

2

Pollini-0115
Appendix E: Pollini v. Commonwealth, Jefferson (Ky.) Circuit Court, 2009, pg. 2

Case 3:14-cv-00689-DJH-RSE Document 28-3 Filed 07/22/15 Page 116 of 1145 PageID #:
388

)

conviction, but could not have been, and were not, addressed by direct appeal. Brown
v. Commonwealth,

788 S.W.2d 500 (Ky.1990); see also Gross v. Commonwealth,

at

856-57 (holding additionally that a defendant is prevented from using CR 60.02 to raise
issues that could reasonably have been presented via RCr 11.42).
The Defendant Pollini alleges that he received ineffective assistance of counsel
because his trial attorneys failed in their presentation of Pollini's defense.
several aspects of trial counsel's alleged failure constitutes

Pollini claims

ineffective assistance of

counsel.
On a claim of ineffective assistance of counsel, the Movant must meet a twoprong test as provided by the United States Supreme Court in Strickland v. Washington,
466 U.S. 668 (1984). The two-prong test established in Strickland requires the movant
to (1) show that counsel's
"counsel" guaranteed

performance

is so deficient as to deprive the defendant

by the Sixth Amendment;

and (2) prove that the deficiency

prejudiced the defendant such that "but for counsel's unprofessional errors, the result of
the proceeding would have been different. 466 U.S. at 687; see also Commonwealth v.
Bowles, 237 S.W.3d 137, 139 (Ky. 2007).1
"In making a determination

of whether counsel was constitutionally

ineffective,

the "critical issue is not whether counsel made errors but whether counsel was so
thoroughly

ineffective that defeat was snatched from the hands of probable victory."

Height v. Commonwealth,

41 S.W.3d 436, 441 (Ky. 2001).

"A defendant

is not

guaranteed errorless counsel, or counsel judged ineffective by hindsight, but counsel
likely

to

render

and

rendering

reasonably

effective

assistance."

McQueen

v.

1 The Stickland two-prong test has been recognized and adopted by the Kentucky Supreme Court in Gall
v. Commonwealth, 702 S.W.2d 37 (Ky.1985).

3

Pollini-0116
Appendix E: Pollini v. Commonwealth, Jefferson (Ky.) Circuit Court, 2009, pg. 3

Case 3:14-cv-00689-DJH-RSE Document 28-3 Filed 07/22/15 Page 117 of 1145 PageID #:
389

')

Commonwealth,
counsel

was

performance,

949 S.W.2d 70 (Ky. 1997). "A reviewing court, in determining whether
ineffective,

must

be

highly

deferential

in

scrutinizing

counsel's

and the tendency and temptation to second guess should be avoided."

Russell v. Commonwealth,

992 S.W.2d 871, 875 (Ky.App. 1999).

The Court "must

indulge a strong presumption that counsel acted reasonably and effectively."
Commonwealth,

Mills v.

170 S.W.3d 310, 328 (Ky.2005).

In his first appeal, Pollini argued that the trial counsel failed to object to the
inclusion of the word "unlawful" in the jury instruction on selt-protection."

Although the

Pollini's trial counsel objected to the wording of the jury instruction both during and after
the Commonwealth's

closing arguments, the Court ruled that such was made too late to

preserve the issue for appellate review. Pollini v. Commonwealth,
(Ky.2005).

172 S.W.3d 418, 428

As a result, the Supreme Court of Kentucky declined to address the issue

since as "statute requires arguments or objections to be made prior to the time the

Court instructs the jury." !Q at 428.

Similarly, Pollini now raises claim that his trial

counsel's failure to object to the first-aggressor
assistance of counsel.

jury instruction constitutes

ineffective

Similar to the prior issue raised, the Kentucky Supreme Court's

earlier ruling applies here in that the issue does not warrant a review for failure to
preserve the issue.
but reasonably

As discussed above, a defendant is not guaranteed a perfect trial

effective representation.

This Court finds that appellant's

claim is a

merely a judgment of his representation by hindsight and must dismiss this claim.
Pollini also raises claim that trial counsel was not aware of two of the four
charges against Pollini that were tried until the day of trial, thus, constituting ineffective

"If Pollini believed Byron Pruitt was there about to use unlawful physical for upon him ... " Pollini v.
Commonwealth, 172 S.W.3d 418, 428 (Ky.2005)

2

4

Pollini-0117
Appendix E: Pollini v. Commonwealth, Jefferson (Ky.) Circuit Court, 2009, pg. 4

Case 3:14-cv-00689-DJH-RSE Document 28-3 Filed 07/22/15 Page 118 of 1145 PageID #:
390

)

assistance of counsel. Appellant claims that as a result of trial counsel's failure to move
for separate trials on the juvenile charges unfairly prejudiced Pollini, subjecting him to
unfair trial. After careful review of the relevant statutes, the Supreme Court of Kentucky
determined that Pollini's juvenile charges where properly transferred and consolidated
with those in Circuit Court. The Court found the offenses arising from the "same course
of conduct"

and, as such,

interrelated
Osborne

enough to constitute
v.

Commonwealth.

Commonwealth,
appellant's

"were interrelated

43

enough

to be joined

the 'same course of conduct'
S.W.3d

234

172 S.W.3d 418, 425 (Ky.2005).

(Ky.

2001);

at trial. .. and

as it is defined in
see

also

Pollini

v.

This Court sees no reason for which

counsel should have moved for separate trials on the charges after the

consolidation was found to be proper by both the trial court and the Kentucky Supreme
Court. This issue and the Appellant's claim are dismissed as moot.
Counsel failed to argue for the introduction of evidence showing that Pruitt was
under the influence of cocaine and benzodiazepine
This issue is an attack on trial counsel's strategy.

around the time of the shooting.
It is not for the reviewing court to

judge, criticize or grade trial strategy utilized by counsel when faced with a claim of
ineffective assistance of counsel.

Rather, the court must be highly deferential

review and avoid second guessing counsel's performance.

in its

Accordingly, this claim is

dismissed.
Counsel failed to present or investigate exculpatory
discussed on the issue of sufficiency of the evidence.

evidence Kentucky Court

Pollini raises this issue on the

mere speculation as to the possible existence of any such evidence to the contrary, not
presented, and does not show how counsel's performance was deficient and less how

5
I#J 1_

9

Pollini-0118

Appendix E: Pollini v. Commonwealth, Jefferson (Ky.) Circuit Court, 2009, pg. 5

Case 3:14-cv-00689-DJH-RSE Document 28-3 Filed 07/22/15 Page 119 of 1145 PageID #:
391

)

such deficiency lead produced a different result.

Strickland v. Washington,

466 U.S.

668 (1984). Accordingly, this claim is dismissed.
Pollini also alleges ineffective assistance of counsel because trial and appellate
counsel failed to act when given information regarding the trial court's improper ex parte
communication
Crystal

with the deliberating jury. The ex parte issue pertained to the trial of

Plank, Pollini's

discussion

Co-defendant

and sister.

However, there was no further

on the issue by the Kentucky Court of Appeals, as the Court reversed

Plank's case base on other errors made in her case.
WL 1313838 (Ky.App.2005)(Not

published).

Plank v. Commonwealth,

2005

After issuing it's ruling of reversal, the

Kentucky Court of Appeals rendered all other issues as moot by the rulings set forth in
their opinion. Accordingly, Pollini's claim is moot and must be dismissed.
As noted by the Supreme Court of Kentucky in Commonwealth v. Bowles, there
exist differences between even the best criminal defense attorneys enough to produce
different presentations of the defense of a particular client.
2007):

citing Strickland v. Washington,

recognized
conviction

237 S.W.3d 137, 139 (Ky.

466 U.S. 668, 689 (1984).

The Courts have

this and have noted that if the Courts were to "reverse every criminal
whereby

legal representation

could have been better or different,

the

prosecution of criminal cases would slowly grind to a halt" and, as a result, the Courts
have "established a very high bar for convicted persons challenging the sufficiency of
their legal representation."
Commonwealth,
infectiveness

Bowles

at 139; see also Strickland

702 S.W.2d 37 (Ky.1985).

at 668; Gall v.

Also, if it is "easier to dispose of an

claim on the ground of lack of sufficient prejudice," a court may do this

6

Pollini-0119
Appendix E: Pollini v. Commonwealth, Jefferson (Ky.) Circuit Court, 2009, pg. 6

Case 3:14-cv-00689-DJH-RSE Document 28-3 Filed 07/22/15 Page 120 of 1145 PageID #:
392

)

rather than spending time attempting to "grade counsel's performance."

Strickland, at

697.
Lastly, Pollini argues that his possible history of post traumatic stress disorder
("PTSD") as grounds for ineffective assistance of counsel claim.

Pollini claims that

although he had medical records possibly indicating a history of PTSD, trial counsel
presented

the testimony

of Dr. Alan Josephson,

a psychiatrist

Bingham Child Guidance Clinic at the University of Louisville.

and Director of the

According Pollini's most

recent and last-minute motion tendered to the court on April 20, 2009, Dr. Josephson's
testimony was discredited

by the Commonwealth

on the basis that Dr. Josephson's

meeting with Pollini was brief and insufficient to support Pollini's claim of PTSD defense.
Pollini has requested the Court for an evidentiary hearing on this issue and for
the opportunity to supplement

the original 11.42 motion to include the new issue of

PTSD as grounds for 11.42 relief. This Court granted the motion to supplement the
record Similar to the previous arguments

raised above, Pollini's newest issue and

arguments fail to satisfy the Strickland test.

First Pollini has failed to show this Court

how the testimony of Dr. Josephson,

in support of his claim PTSD defense,

was so

seriously erroneous that it fell outside the range of reasonably competent assistance of
counsel.

Strickland

at 668. Secondly,

Pollini fails to show that Dr. Josephson's

testimony on was seriously prejudicial to his defense, that without it, the outcome would
have been different. Id. As previously stated, it is not within the purview of this Court to
critique, grade and/or second-guess
ineffective assistance

the performance

of trial counsel in a claim for

of counsel as Pollini is asking this court to do.

reading of all the arguments

raised and documents

After further

filed in this case, this Court

7

Pollini-0120
I "Lin

Appendix E: Pollini v. Commonwealth, Jefferson (Ky.) Circuit Court, 2009, pg. 7

Case 3:14-cv-00689-DJH-RSE Document 28-3 Filed 07/22/15 Page 121 of 1145 PageID #:
393
')
'/

dismisses Defendant's claim on the issue of PTSD. Furthermore, it is "unnecessary for
the Court to order a hearing if the material issues of fact can fairly be determined on the
face of the record."

Maggard v. Commonwealth,

Court finds this issue to be determinable

386 S.W.2d 893, 894 (Ky.1965).

This

on the face of the record presented and,

accordingly, Defendant's motion for an evidentiary hearing is denied.
In making its actual prejudice determination, a court must consider the totality of
the evidence before the judge or jury. Brewster v. Commonwealth,

723 S.W.2d 863

(Ky.) This Court has reviewed and considered the totality of the evidence presented in
this case and based on the above:
ORDER
WHEREFORE

IT IS HEREBY ORDERED AND ADJUDGED that Pollini's Motion

to Vacate, Set Aside or Correct Sentence Pursuant to RCr 11.42 is hereby DENIED;
and Pollini's

Motion for an Evidentiary

Hearing Pursuant to RCr 11.42 is hereby

DENIED.

DATE

Cc:
Hon. R. Kenyon Meyer
Hon. Thomas Van De Rostyne

JUDGE' IRV MA¥

APR

2 , 2009

8

Pollini-0121
1,,-1'

Appendix E: Pollini v. Commonwealth, Jefferson (Ky.) Circuit Court, 2009, pg. 8

